<html>
<title> - TO RECEIVE WITNESS TESTIMONY RELATED TO COMMITTEE SUBPOENA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]












       TO RECEIVE WITNESS TESTIMONY RELATED TO COMMITTEE SUBPOENA

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MAY 28, 2014

                               __________

                           Serial No. 113-69

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-980                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                              ----------                              

                        Wednesday, May 28, 2014

                                                                   Page
To Receive Witness Testimony Related to Committee Subpoena.......     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................    77
Hon. Michael Michaud, Ranking Member.............................     2
    Prepared Statement...........................................    78
Hon. Corrine Brown...............................................    13
    Prepared Statement...........................................    78

                               WITNESSES

Dr. Thomas Lynch, M.D., Assistant Deputy Under Secretary for 
    Health for Clinical Operations, U.S. Department of Veterans' 
    Affairs
Ms. Joan Mooney, Assistant Secretary for Congressional and 
    Legislative Affairs, U.S. Department of VA
Mr. Michael Huff, Congressional Relations Officer U.S. Department 
    of VA

                             FOR THE RECORD

Statement From: Hon. Corrine Brown...............................    79
Letter From Hon. Corrine Brown To: Hon. Rick Scott...............    79

 
       TO RECEIVE WITNESS TESTIMONY RELATED TO COMMITTEE SUBPOENA

                              ----------                              


                        Wednesday, May 28, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 7:28 p.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Bilirakis, Roe, 
Flores, Denham, Runyan, Benishek, Huelskamp, Coffman, Wenstrup, 
Cook, Walorski, Jolly, Michaud, Brown, Takano, Brownley, Titus, 
Kirkpatrick, Ruiz, Kuster, O'Rourke, and Walz.
    Also present: Representatives Bishop of Georgia and Jackson 
Lee.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. I want to welcome everybody to our hearing 
tonight where we're going to discuss VA's continue to lack of 
compliance with a subpoena for documents that this committee 
issued on May the 8th.
    First, I want to ask unanimous consent that Representative 
Sheila Jackson Lee from the State of Texas be allowed to join 
us here on the dais tonight. She said she will be a little bit 
late, but I'd like to ask unanimous consent for that.
    Hearing no objection, so ordered.
    As I'm sure many of you are aware, this afternoon, the VA 
Office of Inspector General issued an interim report that 
confirmed appointment scheduling manipulation discovered by 
this committee and substantiated that significant delays in 
access to care have negatively impacted the quality of care at 
the Phoenix VA Medical Center.
    The OIG also indicated that it has expanded its 
investigation and has opened cases regarding 42 VA medical 
centers. The OIG clearly found that inappropriate scheduling 
practices are systemic throughout the VA. The OIG's interim 
findings make it all the more urgent for VA to come clean and 
fully comply with our subpoena. Veterans' health is at stake, 
and I will not stand for a department cover up.
    Further, to fulfill our congressional oversight duties, it 
is absolutely essential to receive the documents that we have 
requested from the Department of Veterans Affairs. The scope of 
the May 8 subpoena was very narrow and was sufficiently 
tailored to provide reasonable time to produce the documents in 
full. The subpoena simply demanded production by May 19 of all 
emails and written correspondence sent and received by certain 
VA officials between the 9th of April and the 8th of May 
regarding the destruction or disappearance of alternate or 
interim wait list at the Phoenix VA Medical Center.
    My staff was told that the committee would only be 
receiving a partial response on the original due date and that 
VA would produce additional documents on a rolling basis over 
an indefinite and undefined period of time thereafter. If this 
committee were to acquiesce to VA's unilateral rewriting of the 
subpoena terms, it would perpetuate VA's belief that selective 
compliance with committee requests is acceptable and would 
allow VA to continue its perceived mission to prevent this 
committee from doing its job.
    Last night, we received from VA what they purport to be the 
last of the three sets of documents that they are going to 
produce for this committee. The VA has claimed that they 
searched 27 different record custodians and they have produced 
over 5,500 pages of documents.
    At this point, given their pattern of stonewalling 
committee request, I am not at all convinced that they have 
conducted a thorough and comprehensive search for responsive 
records. I know that VA is withholding documents relating to at 
least three relevant communications by claiming attorney-client 
privilege.
    However, VA failed to produce the privilege log demanded by 
the subpoena or provide any explanation whatsoever, which is 
necessary for us to consider whether we will accept the 
assertion of the privilege. This committee deserves a complete 
explanation of the interim list document destruction at Phoenix 
and for its general failure to respond to ongoing requests 
related to delays in care.
    Last week, I invited Ms. Joan Mooney, Dr. Thomas Lynch and 
Mr. Michael Huff to explain VA's incomplete record production 
to the committee. They did not come. Dr. Lynch was in Phoenix.
    On May 22, we prepared three additional subpoenas for Dr. 
Lynch, Ms. Mooney and Mr. Huff to compel them to appear before 
us this week if they again decided to decline our invitation to 
attend this evening's hearing.
    We expect VA to be forthcoming, but unfortunately, it takes 
repeated requests and threats of compulsion to get VA to bring 
their people here. I look forward to hearing what they have to 
say.
    I now recognize the ranking member Mr. Michaud for any 
opening statement he would like to make and then we will 
proceed with questioning.
    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

      OPENING STATEMENT OF MICHAEL MICHAUD, RANKING MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman.
    Tonight, we again find ourselves in a very difficult 
position, and I do appreciate the witnesses appearing before us 
this evening and for the additional production, push of 
materials that came overnight. Unfortunately, as you heard from 
the chairman, those materials and the release of the interim 
OIG report today did not provide the answers we sought but 
rather just raised additional question.
    Mr. Chairman, I share your frustration. I share your 
passion for getting to the bottom of this issue. We have been 
bipartisan on so many things within this committee, and I'm 
hopeful that we can continue that, even as this situation gets 
increasingly difficult and emotionally charged. I'm not 
completely satisfied with the VA's response to our inquiries in 
their compliance with the subpoena.
    However, I do feel over the past few days that there has 
been a shift towards increase of responsiveness and offers to 
try to work harder to satisfy our requirements. A key take-away 
for me tonight will be hearing the VA response to our requests 
for information and what the reasonings are to date for failing 
to do so in a timely manner.
    Let me be clear: I am not happy. I'm not wholly satisfied 
with the VA responses we've received to date. We do expect 
answers. We'll get to the bottom of this to uncover the truth 
and ensure a solution is implemented that never allows 
something like this to happen again. We expect accountability 
and full accountability for every failure that has harmed a 
veteran and for every individual who perpetrated such harm. I 
would strongly urge the IG to diligently but swiftly provide a 
comprehensive final report so we can take action and hold 
people accountable.
    We all share the same goal of ensuring that our veterans 
receive the highest quality care and treatment possible; that 
they deserve nothing less. I believe, as national leaders, we 
rise above politics and emotion and act pragmatically to 
achieve the best outcomes for our veterans. We must take our 
responsibilities seriously and that will yield results. I look 
forward for an opportunity to get some substantive answers from 
the VA this evening.
    Mr. Chairman, I yield back.

    [The prepared statement of Michael Michaud, Ranking Member 
appears in the Appendix]

    The Chairman. Thank you very much to the ranking member.
    Prior to beginning our questions this evening, I'd like to 
ask unanimous consent that the ranking member, Mr. Michaud, and 
myself be allowed to have 15 minutes each for questioning 
followed by 5 minutes for members, and if necessary, we will 
have a second round of questioning, as well.
    Hearing no objection, so ordered.
    Dr. Lynch, Ms. Mooney, Mr. Huff, thank you for attending. 
If you would, please stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Dr. Lynch, just today the VA Office of 
Inspector General issued an interim report identifying multiple 
lists other than electronic waiting list and multiple types of 
scheduling practices that are not in compliance with VHA 
policy. When you went to Phoenix after the hearing in this 
committee on April 9, did you identify these same issues during 
your review, or did you just merely take the word of those in 
charge that everything was fine?
    Dr. Lynch. Mr. Chairman, I have made----
    The Chairman. If you could turn the mike on please, sir.
    Dr. Lynch. Sorry. Mr. Chairman, I have made three visits to 
Phoenix to date. The first visit, the visit after which I 
reviewed my findings with your committee staffers, was an 
initial visit. We had little information to go on at the time. 
We did identify, and I did share with your committee staffers 
that we thought we had identified an intermediate work product 
that was used to identify veteran appointments that had been 
canceled for the purpose of rescheduling those veterans.
    I also indicated at that time that it was my impression 
that document had been appropriately destroyed when its purpose 
was over, when the veterans had been rescheduled. I also made 
it very clear to the committee staffers that this was an 
iterative process, and that we were going to continue our 
review. I returned about a week and-a-half later with two 
additional staff, a scheduling expert and an individual with 
expertise in systems redesign and scheduling. We spent a week 
at the Phoenix VA dissecting and understanding the process of 
scheduling that had been going on since late 2012. I will be 
happy to outline that process for you.
    Beginning in November of two thousand--beginning actually 
in October of 2012, the facility committed to identifying 
veterans who had been scheduled more than 3 months in the 
future. They identified more appropriate slots to see these 
individuals sooner.
    The Chairman. Okay, Dr. Lynch, I apologize, but we're not 
going to be able to have longwinded comments. You said you told 
the staff that it was your impression that the list was 
destroyed. Is that what you're saying today?
    Dr. Lynch. That is what I'm saying.
    The Chairman. Okay. Mr. Huff----
    Dr. Lynch. At that time.
    The Chairman. Mr. Huff, you were in the room at the time--
--
    Mr. Huff. I was.
    The Chairman. Did Mr. Lynch say it was his impression that 
the list was destroyed? You are under oath.
    Mr. Huff. I believe that's what it--what he said.
    The Chairman. You believe or you know?
    Mr. Huff. I believe that's what he said, from my memory.
    The Chairman. You didn't take any notes? You were in the 
room and you took no notes?
    Mr. Huff. I took notes, and I don't have those in front of 
me today, but I believe----
    The Chairman. Let me ask you a question. If you took notes 
at that meeting, why haven't those notes been provided to this 
committee as part of the subpoena for all records talking about 
the destruction of the list, including notes, phone calls, 
emails, letters and memos?
    Mr. Huff. I turned over all of my documents to the Office 
of General Counsel.
    The Chairman. Does anybody at the table know why those 
notes have not been delivered? Ms. Mooney.
    Ms. Mooney. The Office of General Counsel----
    The Chairman. Your mike is not on.
    Ms. Mooney. Oh, sorry. Because this is a legal issue, the 
Office of General Counsel has the lead for the Department. My 
understanding is that upon receipt of the subpoena on May 8, 
they began--the Office of General Counsel began responding to 
the subpoena and dedicated a significant number of employees 
and resources to that effort in pulling responsive email 
records for 27 individuals.
    The Chairman. Let me----
    Ms. Mooney. I also----
    The Chairman. Excuse me. Let me interrupt you and read you 
the definition in the subpoena. The term ``document'' means any 
written record or graphic matter of any nature whatsoever 
regardless of how recorded, whether classified or unclassified 
and whether original or a copy, including but not limited to 
the following: Memoranda, instructions, working papers, 
records, notes, letters, notices, confirmation, telegrams; in 
other words, everything.
    Why have we not received all of the documents requested in 
the subpoena, even though we got a letter from the general 
counsel late last night that said VA was done?
    Ms. Mooney. I understand the general counsel has held a 
very small number of documents for attorney-client privilege. 
They've been in communication with your staff in ongoing 
discussions related to those documents.
    The Chairman. Are the records from a briefing part of the 
protected notes that the general counsel is claiming attorney-
client privilege about?
    Ms. Mooney. Mr. Chairman, I would defer to the Office of 
General Counsel for that.
    The Chairman. So the question again is, has VA complied 
with the terms of the subpoena?
    Ms. Mooney. It's my understanding that VA has provided the 
committee with relevant information in response to that 
subpoena.
    The Chairman. Can you say anything without reading your 
prepared notes?
    Ms. Mooney. Sir, this is within the Office of General 
Counsel. General counsel would be the appropriate party to ask.
    The Chairman. And we did ask the Office of General Counsel 
to come brief Members last week, and the general counsel 
declined. He said he declined because he didn't want to brief 
the Members. He wanted to brief the staff. There's not a single 
person sitting up here in this room that's staff that voted for 
the subpoena. The Members did. Until VA understands that we're 
deadly serious, you can expect us to be over your shoulder 
every single day.
    And while I have your attention, can you please explain to 
me why we, in fact, have 110 outstanding requests for 
information, some dealing with this issue specifically, and if 
you want a specific one, why have you not told this committee 
yet who was disciplined in Augusta, Georgia, and Columbia, 
South Carolina, where nine veterans died because they were on a 
waiting list for colonoscopies?
    Ms. Mooney. As you know, Mr. Chairman, in the last 5 years, 
the Office of Congressional Legislative Affairs has responded 
to over 100,000 requests for information.
    The Chairman. Ma'am, ma'am, ma'am, ma'am, veterans died. 
Get us the answers, please.
    Ms. Mooney. I understand that, Mr. Chairman. And I will 
look----
    The Chairman. That's what you said 3 months ago. This has 
been going on since January. Since January. In case you don't 
know it, we put on our Web site every week what we ask for and 
nothing changes from week to week. We have an oversight 
responsibility in this Congress, and we cannot do our job 
appropriately if you don't provide us the information that we 
request.
    Dr. Lynch, given the fact that you declared the issue a 
misunderstanding in the first brief, as staff has related it to 
me, and the Office of Inspector General's report issued today 
substantiated inappropriate scheduling and said it was systemic 
throughout VHA, do you believe that you have the credibility 
now necessary to identify and fix the problems?
    Dr. Lynch. Mr. Chairman, I believe I used the term 
``misunderstanding'' with respect to the references that were 
being made to a secret list. I did not make any qualifications 
or statements as to whether I thought the actions occurring in 
Phoenix were appropriate.
    The Chairman. So is your contention that there still was no 
secret list?
    Dr. Lynch. It is my contention that there were a number of 
documents, three of which were identified by the IG today, one 
of which we identified earlier that were working documents used 
to provide information about patients for addition to the 
waiting list or for rescheduling of patients. I did not think 
they were secret lists. I think they could easily have been 
misunderstood as being secret lists.
    The Chairman. I would remind the committee that we 
discussed this last week, as well. Dr. Lynch came back from 
Phoenix and asked to brief the four corners, of which, in just 
a matter of hours, we were able to have the four corners come 
together of the staff, and in that, you said, and I'd like to 
know what gave you the impression that the list had been 
destroyed.
    Dr. Lynch. It had been conveyed to me secondhand by one of 
the members who had been with us on the first visit that the 
center was using a document to record the names of veterans who 
had been canceled, whose appointments had been canceled so that 
they could be rescheduled. After the patients and veterans had 
been rescheduled, the list was no longer required, and it was 
destroyed. It did contain patient-identifiable information.
    The Chairman. Okay. Staff is telling me that it was 
described to them as a transitional document as people were 
transitioning from paper over to the electronic waiting list. 
And I guess my question is, was the list destroyed before or 
after this committee requested a preservation order for all 
documents?
    Dr. Lynch. Mr. Chairman, it was my impression that those 
lists were destroyed before your preservation order. I was 
trying to explain, before you asked me to be brief, that this 
was occurring between October and November of 2012 and mid-
2013. At the time of my first visit, we thought that the 
transfer was occurring to the electronic wait list.
    We learned during the course of the second visit that the 
transfer and the use of this document was occurring during the 
course of rescheduling patients because they were trying to 
provide care more promptly and because they were trying to 
consolidate clinic profiles to make the clinic management more 
efficient.
    So, in that process, patient appointments were being 
canceled, the VistA scheduling system that VA uses 
automatically generates the list of patients who are canceled 
so that list can be used to reschedule patients. Once the 
rescheduling has occurred, the list is no longer necessary. So 
it is appropriately destroyed as it does contain patient-
identifiable information. And it was my understanding, Mr. 
Chairman, that this did occur from late 2012 through mid-2013.
    The Chairman. Why didn't we know that when we first asked 
about it?
    Dr. Lynch. Because I had only come back from the first 
visit. It wasn't until we took back the team and spent a week 
there working through the entire process that we understood 
exactly what had been going on, Mr. Chairman.
    The Chairman. I have written a letter asking for that 
specific information--and has it been responded to? Okay--and 
it was never responded to, hence the subpoena. So, again, we 
are trying to get answers. Nobody is giving the answers to us. 
That is why we are here tonight.
    Let me real quick, before my time runs out, according to an 
internal VA email received under the subpoena, an employee in 
Los Angeles reported up the chain of command that wait times in 
the Los Angeles VA Medical Center was, in fact, being 
manipulated. Interestingly, the director of the facility's 
response was, the employee was simply a disgruntled employee.
    In a related email, a senior official substantiated, and I 
quote, ``There appears to be inappropriate actions by the 
supervisor in Los Angeles,'' end quote. Would you comment for 
the committee's behalf what's going on in Los Angeles?
    Dr. Lynch. Mr. Chairman, the only concerns that I am aware 
of that related to Greater Los Angeles were concerns expressed 
by an employee regarding the cancellation of radiology orders 
which were felt to be stale, old and no longer appropriate. It 
is my understanding based on discussions with the chief of 
staff as well as the chief of radiology that this was done 
after a careful review of those orders and the physicians were 
notified at the time of cancellation in case they needed to 
reschedule that appointment or request.
    The Chairman. So every single veteran was contacted who had 
one of their orders canceled?
    Dr. Lynch. That is what I was told, Mr. Chairman.
    The Chairman. Well, let me give you a little hint: VA won't 
tell you the truth.
    Dr. Lynch. Mr. Chairman----
    The Chairman. So if you're relying solely on the management 
of these facilities to tell you the truth, you're not going to 
get it. You're just not going to get it. The complaint, by the 
way, before my time runs out, very quickly, is not in 
radiology. It's exactly what we're seeing all over the country, 
so I would suspect that you better have somebody go to Los 
Angeles quickly before they start destroying secret lists.
    Mr. Michaud.
    Dr. Lynch. Mr. Chairman, if you share the documentation 
with me, I will be happy to follow up. I think you know my 
commitment to veterans and my commitment to understanding 
problems with their VA health care system.
    The Chairman. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Dr. Lynch, on what date did you first become aware that 
there were allegations of problems in Phoenix?
    Dr. Lynch. On April 9, 2014, Congressman.
    Mr. Michaud. On what date did you travel to Phoenix to 
investigate?
    Dr. Lynch. I made the first visit to Phoenix, I believe, on 
April 17. It was the Thursday before Easter. I was there 
through Easter until Tuesday of the following week.
    Mr. Michaud. And was that the day--what was the date you 
returned back to DC.?
    Dr. Lynch. I believe it was on April 23, and I believe I 
came down to discuss the initial findings with the committee 
staff on April 24.
    Mr. Michaud. And under whose direction did you fly to 
Phoenix?
    Dr. Lynch. Dr. Robert Petzel had asked me to go to Phoenix.
    Mr. Michaud. And who did you travel to Phoenix with?
    Dr. Lynch. Myself; my wife joined me for the weekend.
    Mr. Michaud. Can you please explain your role in the 
initial investigation in Phoenix as well as the role of the 
individuals that you are with.
    Dr. Lynch. My initial role in Phoenix was to try to get an 
understanding of what had happened, to get a sense for how the 
congressional delegations as well as the veterans' service 
organizations were viewing the allegations. I brought with me 
two individuals, Dr. Mike Davies and a scheduling expert, who 
did some initial work in discussing scheduling processes in 
Phoenix.
    I focused my attention on working with the Quality 
Assurance Department to identify what they had--what 
information they had about deaths that had occurred at the 
facility and what review process they had put in place to look 
at those deaths. We further put in place a process to match 
those deaths against potential delays in care so we could see 
whether or not any of the deaths they had records of, were 
related to delays in care.
    Mr. Michaud. You said you talked with Mike Davies. He 
didn't go down with you?
    Dr. Lynch. Mike Davies did go down with me along with his 
scheduler. They spent their time talking with the folks in the 
scheduling office, also with providers to get an understanding 
of their clinic management model.
    Mr. Michaud. Okay. Because I thought you answered my 
question when I asked you who did you travel to Phoenix with. I 
thought you said by yourself.
    Dr. Lynch. Oh, I'm sorry. I flew by my myself. They joined 
me there the Monday following Easter.
    Mr. Michaud. Okay. Thank you for that clarification.
    And when did you first become aware that the Phoenix 
facility had used an Excel spreadsheet in regards to patients' 
scheduling?
    Dr. Lynch. Dr. Davies had indicated to me that they had 
heard there had been use of an Excel spreadsheet to transfer 
information about canceled patients to allow rescheduling of 
those patients. I will say that, subsequently, we found that 
spreadsheet reference to be incorrect when we went back the 
second week and worked through the process more completely.
    Mr. Michaud. And what date was that on?
    Dr. Lynch. The second visit occurred during the week of May 
5 through May 9. I arrived on Monday, May 5. I left on 
Saturday, May 10.
    Mr. Michaud. And during what period of time was the 
spreadsheet used?
    Dr. Lynch. I would correct the statement. I no longer think 
it was a spreadsheet. We now believe that it was an 
intermediate product generated by the VistA system. When you 
cancel a patient it generates a document that says these are 
the patients you canceled. It provides information about their 
Social Security number, the date of their appointment and the 
time of their appointment so that you can use that information 
to reschedule the patients.
    Mr. Michaud. And the date that Mr. Davies informed you of 
the spreadsheet or--I guess you don't call it the spreadsheet. 
What was the date that you first----
    Dr. Lynch. At the time, we thought it was.
    Mr. Michaud. Okay.
    Dr. Lynch. As I stressed to the committee staffers, this 
was an iterative process. We were learning. We wanted to be 
sure we understood the process. I believe he informed me on 
either April 21 or April 22.
    Mr. Michaud. And you informed the committee staff that this 
spreadsheet, so-called spreadsheet, was destroyed at some 
point. When was it destroyed and who authorized it?
    Dr. Lynch. My understanding was that it was destroyed when 
the patients had been rescheduled, which would have been 
probably in late 2012 through mid-2013.
    Mr. Michaud. Okay. And it's my understanding that a paper 
wait list may constitute a number of items, including 
spreadsheets, Word documents and Post-it notes. During your 
investigation in Phoenix, did you become aware of any other 
item that may be loosely considered a paper wait list being use 
in the Phoenix?
    Dr. Lynch. During the course of our second week there, my 
second week there, we did identify three additional documents. 
They were also referenced by the inspector general's report 
today. They were, first, the NEAR list. Second, a the request 
to schedule a consult which was generated from the emergency 
department, and finally, the requests to schedule that were 
generated from the VA Phoenix's help line when patients called 
in asking for an appointment.
    Mr. Michaud. And who authorized the destruction of the 
list?
    Dr. Lynch. I'm not sure, sir, who authorized the 
destruction. I think it was felt that once the purpose of the 
list or the document had been completed, the patient's entry 
had been added on to the electronic wait list or the patient 
had been scheduled, that it was appropriate to destroy the 
document because it contained patient-identifiable information 
and could potentially have adverse consequences if it was not 
destroyed.
    Mr. Michaud. And who--was it the visiting director that, or 
I mean, is that a common policy that it be destroyed or----
    Dr. Lynch. To my understanding, Congressman, it's a Federal 
mandate that we cannot keep lists of personally-identifiable 
information once they have served their useful purpose.
    Mr. Michaud. Okay. If you identified other items used as a 
paper wait list, what were they and when were they used?
    Dr. Lynch. So the only four documents that I identified 
were the intermediate work product generated by VistA, the VA's 
electronic health record, that documented the names and Social 
Security numbers of patients whose appointments were canceled; 
were the NEAR list, which is actually, to my knowledge, an 
electronic document that is generated by VA in response to new 
enrollee requests for appointment; the documents used to store 
requests for consults from the emergency department and the 
documents used to transfer information about patients 
requesting appointments when they called to the VA hot line.
    Mr. Michaud. Okay. And going back to when you first became 
aware of the problems with Phoenix, can you please detail what 
steps were taken at the central office to investigate and 
respond to these allegations?
    Dr. Lynch. The steps, sir, included the following: Number 
one, I was asked to go back so that we could develop an 
understanding of what scheduling processes were going on. At 
the same time, during the week of the 5th, a second team 
arrived from VA central office. Their focus was to take the 
information that we had gathered, develop recommendations and 
provide those to the facilities and to the scheduling office to 
improve their efficiency.
    The week after I left, there was a third team that arrived, 
experts in systems redesign who were working with the clinic to 
look at their processes and assure that the clinic was 
functioning in an efficient fashion so that we were not using--
we were not missing valuable resources that could be used to 
provide care to veterans.
    Mr. Michaud. And who was part of the second team?
    Dr. Lynch. Congressman, I do not recall at this time. The 
names have slipped from my mind.
    Mr. Michaud. But who was initially in charge of the VA's 
response?
    Dr. Lynch. The VA's response was led by me while I was in 
Phoenix and by Mr. Philip Matkovsky, who was putting together 
the supporting documentation in Washington that the teams were 
using to improve the processes in place.
    Mr. Michaud. Okay. And if working groups were formed to 
address the allegations in Phoenix, under whose authority were 
they formed and on what date?
    Dr. Lynch. I cannot tell you under whose authority they 
were formed. The process began to come into play probably late 
in the first week of May as we began to develop a way forward.
    Mr. Michaud. Okay. What was your initial assignment when 
you first were asked to go to Phoenix?
    Dr. Lynch. My initial assignment was to go down and, try to 
understand what was going on, try to understand the climate 
that was present within the organization and also try to 
identify what information they did have about deaths that may 
have occurred in their facility.
    Mr. Michaud. And are you surprised by the findings in the 
interim report released today by the IG?
    Dr. Lynch. Not at all. In fact, I would emphasize that I 
did contact the IG when I returned to Washington. I shared the 
information that we found with them. So it does not surprise me 
what they reported. We had shared that information with the IG.
    Mr. Michaud. So nothing in there was a surprise, then?
    Dr. Lynch. I think we had not looked at the numbers of 
patients that were on those lists. That was a surprise. But 
everything else we had identified during the course of our 
visit.
    Mr. Michaud. Okay. Thank you.
    Ms. Mooney, in looking at the documents the VA has produced 
in response to the committee's subpoena, are you aware if the 
response includes any documents or emails dated prior to April 
24, 2014?
    Ms. Mooney. Congressman Michaud, the subpoena was responded 
to by the Office of General Counsel as it's a legal action.
    Mr. Michaud. So you're not----
    Ms. Mooney. So I don't have them. I don't have them. I 
wouldn't have knowledge of that.
    Mr. Michaud. Okay. Can you please explain the difficulties 
that the two face answering the questions posed by the 
committee of, you know, weeks ago?
    Ms. Mooney. I think in terms of weeks ago with regard to--
--
    Mr. Michaud. Well, when was the spreadsheet, you know, that 
was mentioned by Dr. Lynch at a briefing on April 24 destroyed?
    Ms. Mooney. Oh, yes. Dr. Lynch didn't provide a response to 
the committee's May 1 letter regarding his statement at the 
April 24 staff briefing because the Office of Inspector 
General's investigation was ongoing as well as his own 
investigation was ongoing. And at that time, my understanding 
is, there were no facts upon which to respond to the 
committee's request in the letter. So my understanding is we 
stuck to the facts in the letter.
    Mr. Michaud. But is this unique to the VA? I mean, when you 
talk about the, you know, your attorneys, are these technical 
difficulties common among all agencies or just specific to the 
VA?
    Ms. Mooney. Technical difficulties, I'm not sure.
    Mr. Michaud. Well, the concern that I have is the fact that 
the committee asked for very basic questions, very narrow 
questions so it would not interfere with the inspector 
general's report. And we thought it was something we should be 
able to get without any problems, but there seems to be an 
ongoing delay in getting information to the committee.
    And any time we asked about certain information, the 
standard response is, Well, we can't give that because of our 
legal counsel. And that's a concern that I have is the fact 
that what appears to be unresponsiveness from the Department 
for very basic questions that we originally asked before we 
issued the subpoena.
    Ms. Mooney. In the case of this subpoena, we had a number 
of staff in the Office of General Counsel, I know, who worked 2 
and a half weeks to provide the documents in response on a 
rolling basis.
    Mr. Michaud. Well, why didn't you tell us about the IG 
investigation and that no facts, instead of just, you know, 
ignoring us? I mean, if the IG was doing an investigation, why 
didn't you tell us initially, and therefore, you could not 
respond?
    Ms. Mooney. I believe, my recollection would be that, I 
think that as of the April 24 briefing, I believe we knew that 
the IG was in. I'm not sure.
    Dr. Lynch. The inspector general was in Arizona at the same 
time we were there. We did talk with them to assure that we 
were not in their way.
    Ms. Mooney. Yes.
    The Chairman. Thank you, Mr. Michaud.
    Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Before I question the witnesses, I first must call for the 
resignation of Secretary Shinseki. I was waiting for 
information to be gathered to make my judgment and now it is 
in. Based on the interim inspector general report that came out 
today, our veterans in Phoenix, and maybe other cities, have 
not been treated properly.
    This report states, quote, Our review at a growing number 
of VA medical facilities have confirmed that inappropriate 
scheduling practices are systemic throughout VHA. The tragic 
possibility that veterans who have died while on the waiting 
list have died because of the waiting list is still open. The 
OIG will hopefully answer this in their final report, though 
not in this interim report.
    Even if the Secretary did not know in advance of these 
wrongdoings, and I don't believe he did, these violations 
should not have happened on his watch. I believe that Secretary 
Shinseki's service while in Active Duty was honorable, but 
success in the military does not automatically translate into 
success in the policy and political realms.
    Here we have a concrete example of the failure of 
bureaucracy and a failure of leadership. Funding has not been 
the issue. A supportive nation has not been the issue. The 
issue is hands-off leadership. Even the Secretary's response to 
the IG investigation today was a failure. He promises to triage 
the 1,700 veterans on the secret waiting list in Phoenix. These 
1,700 veterans should not be triaged; they should be seen 
immediately.
    Dr. Lynch, 1,700 veterans are on a secret waiting list in 
Phoenix with average wait times of 4 months for a primary care 
visit. We know of similar stories emerging elsewhere. Why are 
thousands of veterans waiting months for care at the VA when 
there is a system already in place to treat these men and women 
in the private sector using fee basis? If the care is not 
available at the VA, they can go to any private hospital or 
clinic and get immediate care. Why isn't that being done?
    Dr. Lynch. Congressman, that is being done. There are plans 
in place to contact every one of those 1,700 veterans by close 
of business on Friday. Their need for care will be assessed, 
and they will be offered fee basis services if appropriate. 
Across VHA, there is also a process in place which began 
approximately a week or so ago, and that process is asking each 
of the facilities to look at their wait lists to identify those 
patients who are waiting for care, to contact those veterans 
and to offer them fee basis services if that's what they 
request.
    Mr. Lamborn. And I'm glad you did not say that you're 
waiting for more money from Congress. The money has been given 
to you. The money is there. In fact, money has carried over 
each of the last 5 years, from 2010 to 2011, $1.5 billion was 
carried over; $1.1 billion from 2011 to 2001. Even this year we 
anticipate half a billion being carried over. So money is not 
the issue. You would agree with me on that?
    Dr. Lynch. Congressman, care is the issue. And we need to 
assure that if veterans have been waiting, that we identify 
those veterans and we provide care in the community if 
necessary.
    Mr. Lamborn. Okay. Well, I would view this as a type of 
disaster relief that veterans are entitled to and the money is 
there.
    Ms. Mooney, let me ask you this: I recently spoke with the 
directors of VA health care facilities in Colorado and asked 
them about whether there are waiting lists in Colorado. They 
assured me that there was not, to their knowledge, but when the 
information comes out in a report like this that there are 
systemic problems throughout the country, we have problems 
getting the documents that we want. Trust has eroded. What can 
we say to veterans to restore that trust? I think we have a 
real problem with broken trust.
    Ms. Mooney. Congressman, we appear this evening in good 
faith to answer the best course of action is the one that best 
serves the needs of our veterans. We pledge to work with you to 
get you what you need.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you very much.
    Ms. Brown, you're recognized for 5 minutes.
    Ms. Brown. Thank you, Mr. Chairman.

            OPENING STATEMENT OF HON. CORRINE BROWN

    You know, I've been on this committee for 22 years, and 
first of all, before I begin, I am going to put in the record a 
letter that I am sending to the Governor of the State of 
Florida. He is grandstanding, indicating that he is suing the 
VA for the fact that he is sending people to the various VA 
facilities around the State of Florida, and he wants to take a 
look at the records.
    Now, you know this is the most grandstanding action I've 
seen since I've been in Congress, because first of all, the 
State has absolutely nothing to do with the VA. And in fact, we 
have got over 4 million people that need health care expansion 
that Florida are sending back that's could die because they're 
not getting the quality health care that they need. That's the 
first thing.
    So can you, Ms. Mooney, tell me anything about the lawsuit 
of whether or not the Governor has sent people, Governor Rick 
Scott, to the various VA facilities throughout Florida? I've 
never even heard of anything like that, and I am certain it has 
never happened in the history of the United States of America.
    Ms. Mooney. Congresswoman Brown, I'm not--I have not heard 
of anything like that before these incidents, and I would be 
happy to take your request to our Office of General Counsel and 
Intergovernmental Affairs that deals with our State partners.
    Ms. Brown. That's what it is: State partners. And speaking 
of State partners, I personally went to California and I came 
back and reported to this committee that we had 400 units that 
we had built that was standing still for 2 years and no veteran 
was in these brand new facilities. 400 units in L.A. on the 
property. So we're not talking about problems that just started 
recently at VA. It's been problems for years.
    In fact, I want to commend the Secretary, because let's be 
clear, Vietnam veterans, they were getting the runaround, the 
runaround from the VA system. This Secretary opened it up and 
brought in millions of additional veterans. Millions. And yes, 
we have a responsibility to make sure that they're taken care 
of.
    But I did my reconnaissance in Florida, and I can tell you, 
we're doing fine in Florida. We have a new hospital in Orlando 
soon, I hope. I've been working on it. We have a wraparound in 
Gainesville. We have new cemeteries in Florida. We serve over 
almost 600,000 veterans a year in Florida. So I can truly say, 
I went and talked to various VA groups in Florida and not one 
single complaint, because we are doing our job and that is what 
this committee is supposed to do, make sure that the VA is 
doing what we committed to the other veterans.
    And let's forget the grandstanding, because I've seen a lot 
of it, but I was here. Yes, we do have money for the veterans, 
but for years, it was just a talk. It was just a talk. But 
under this President, and when we had a Democratic House and a 
Democratic Senate, we got the largest VA increase in the budget 
in the history of the United States. So we do have the money, 
but we've got to know that we are not just talking the talk; we 
are walking the walk.
    Now, Dr. Lynch, is there any additional information that 
you want to give me about the overall problems with the VA 
around the country? Because I know Florida is not included.
    Dr. Lynch. Thank you, Congresswoman.
    I want to make sure that I choose my words carefully. I've 
thought about this for a long time. Let me begin by saying, I 
think that it is absolutely critical that VA maintains focus on 
its mission to serve veterans and its core business to provide 
for primary health care for our veterans. I think it's 
important to remember that we have a good system. I think that 
system is worth saving. The quality of health care does compare 
favorably with that in the private sector.
    In the last 5 years, we have provided health care to over 
200--or over 2 million new veterans. Our performance measures, 
however, have become our goals, not tools to help us understand 
where we needed to invest resources. We believed our access 
numbers, but we undermined the integrity of our data when we 
elevated our performance measures to goals. We were told that 
the scheduling system was challenged, but we discounted the OIG 
reports and patient concerns as exceptions not the rule.
    We could have and should have challenged those assumptions. 
This was an insidious process. It was not obviously apparent 
while it was happening. I think, however, having said that, 
that there is a way forward. I think we must first charge our 
medical center directors and network directors to assess and 
insure the integrity of their organizations. This has to be the 
first step. With integrity we do have the tools to monitor 
demand and capacity and to assign resources appropriately. We 
will also need to assure a collaborative relationship with 
Congress. This will be essential.
    VA has faced criticism in the past, and it is better for 
it. In the 1940s, Omar Bradley and Paul Hawley remodelled the 
VA system, involved our academic medical partners and 
established a research presence in VA. In the mid-1980s, there 
were questions about the quality of VA surgical care. In 
response, the VA developed a risk-adjusted care model that has 
been adopted by the private sector and is now used to assess 
surgical mortality across the country.
    In the mid-1990s, there again were concerns about VA care. 
VA implemented a new model of care emphasizing outpatient care 
and began to implement the use of the electronic health record, 
which is now used by health care across this country. We have a 
good health care system. We have a good foundation. We have 
challenges. I recognize that. I think, working together, we can 
solve those challenges, and we can once again provide evidence 
of an excellent health care system for our veterans.
    Ms. Brown. Thank you, Mr. Chairman, for the additional 
time.

    [The prepared statement of Hon. Corrine Brown appears in 
the Appendix]

    The Chairman. Thank you, Dr. Lynch.
    And also Ms. Brown, would you please give me the document 
that you wanted, and I'll ask unanimous consent that it be 
entered into the record.
    Without objection.
    The Chairman. I'll also ask that unanimous consent that Mr. 
Bishop from Georgia be allowed to join us at the dais.
    Without objection, so ordered.
    The Chairman. Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thank you for holding this hearing.
    I want to thank the ranking member, as well.
    Thank you both for your strong leadership in this area.
    I'm going to run right into the--I'm going to jump right 
into the questioning in the interest of time instead of making 
a statement.
    Dr. Lynch, in correspondence sent to our committee on May 
7, 2014, Secretary Shinseki confirmed your statement that the 
interim wait list was maintained and destroyed, which you told 
the House and Senate committee staff on April 24, 2014. Is that 
correct?
    Dr. Lynch. That is my understanding, Congressman.
    Mr. Bilirakis. How and when did you become aware of the 
interim wait list referenced in this hearing?
    Dr. Lynch. I first became aware of the reference, and I 
would correct the concept that this was an interim wait list. 
This was a work product generated by the VistA scheduling 
system that, when patients were canceled, was generated so that 
we were aware of who was canceled so that those patients could 
be rescheduled. It was not a wait list. It was an interim work 
product.
    Mr. Bilirakis. Okay. Dr. Lynch, what is VA's current policy 
concerning its document retention period, specifically 
regarding electronic patient records under VHA's records 
control schedule guidelines? Do you know of the policy, the 
current policy, sir?
    Dr. Lynch. Congressman, I don't have the policy available.
    Mr. Bilirakis. Under the Veterans Health Administration 
directive, 6,300 is States. Disposal authority is the legal 
authorization obtained from the Archivist of the United States, 
the National Archives and Records Administration, for the 
disposal of records and recorded information.
    Next question for the entire panel: What was the reasoning 
for the destruction of said documents? I'd like to hear from 
the panel.
    Dr. Lynch. I'll start, Congressman.
    Mr. Bilirakis. Please.
    Dr. Lynch. It was my understanding that they were 
intermediate work products; that they had patient-identifiable 
information; and that when their usefulness had been served, it 
was appropriate to dispose of them.
    Mr. Bilirakis. Yes, please.
    Ms. Mooney. I have not been involved in the investigation 
nor was I present at the staff briefing.
    Mr. Bilirakis. Sir, what was the reasoning for the 
destruction of documents?
    Mr. Huff. I defer to Dr. Lynch.
    Mr. Bilirakis. Why was the interim list not considered a 
system of record and maintained, Doctor?
    Dr. Lynch. I'm not sure I can answer that completely, 
Congressman. I think because records of patient cancellation 
are preserved in the overall record system, this was used as a 
process to assure that we knew who was canceled so they could 
get rescheduled.
    Mr. Bilirakis. When were these documents destroyed, Dr. 
Lynch?
    Dr. Lynch. To the best of my knowledge, they were destroyed 
sometime between late 2012 and mid-2013.
    Mr. Bilirakis. Did anyone from the VA or a third party 
conduct some form of verification prior to the list's 
destruction?
    Dr. Lynch. I don't have knowledge of that, Congressman.
    Mr. Bilirakis. How long was the interim list in existence, 
and are there any other documents currently in use just like 
this? Are you aware of any documents currently in use just like 
this, quote-unquote, interim list?
    Dr. Lynch. To my knowledge, there were lists that were used 
to transfer requests for care from the emergency department as 
well as requests for care from the VA help line. I believe they 
were referenced in the IG report. I believe that the IG also 
referenced that they were destroyed when the information had 
been entered into the electronic wait list.
    Mr. Bilirakis. The next question. Who within the VA is 
responsible for the management and maintenance of VA's policies 
for record retention? Does anyone on the panel know?
    Dr. Lynch. Congressman, I don't know. We'll have to take 
that for the record.
    Mr. Bilirakis. Anyone else on the panel know? Can you 
please get back to me?
    Do you believe, whoever it might be, whether it's he, she, 
or they, should be held accountable and penalized under VHA's 
own records controlling scheduling guidelines if found to have 
destroyed records without prior authorization? Who can answer 
that question for me? Doctor? Should they be held accountable?
    Dr. Lynch. Congressman, I don't think that we're in a 
position to answer that question.
    Mr. Bilirakis. Anyone else on the panel? Okay.
    Thank you very much, Mr. Chairman. I appreciate it. I yield 
back.
    The Chairman. Thank you.
    Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    You know, the VA is a huge and complex organization of 
many, many facilities, and when such a bureaucracy is under 
siege, people often run for cover. I recall an instance in 
post-Apartheid South Africa, when they were looking for 
accountability, that there was something called a truth 
commission to encourage people to tell the truth.
    I was reminded of this somewhat by this New York Times op-
ed piece by Dr. Sam Foote, the retired VA physician who blew 
the whistle in the Phoenix VA Medical Center. And he suggested 
an alternative to Secretary Shinseki's approach to the internal 
audits. I mean, he's skeptical that they're going to work and 
produce good data.
    He believes that the Government Accountability Office 
should conduct an anonymous survey of primary care providers 
and other health professionals at VA hospitals and clinics to 
find out what they think the real new and returning patient 
waiting times are. Then she should give the hospital 
administrators a 1-week amnesty period to report their own 
version of the waiting times, and if the numbers match, then 
you have reliable data. If they don't, then send the inspector 
general out to audit them. If the hospital administrators have 
manipulated their data, then appropriate action will be taken.
    What do you think about this sort of approach as a way to 
try to get at reliable and accurate data?
    Dr. Lynch. Congressman, I think I state the obvious when I 
say that VA needs to work hard to reestablish trust and 
confidence among veterans.
    I think we welcome help from any government agency in 
identifying problems and helping us come to solution. Whether 
that is the best option, I don't know, but we have certainly 
valued the reports from the GAO and the OIG in the past.
    Mr. Takano. Ms. Mooney and Mr. Huff, could you comment?
    Ms. Mooney. Thank you. We value collaboration in working to 
provide our veterans the best care.
    Mr. Takano. Mr. Huff.
    Mr. Huff. I work hard every day to, you know, do my job and 
provide the information that the committee needs.
    Mr. Takano. Well----
    Mr. Huff. And I will continue to do so.
    Mr. Takano [continuing]. You know, I took note of this just 
mainly because it was the whistleblower himself who suggested 
that we try another approach, in terms of trying to get 
accurate information from VA employees.
    Is Congress going to get a list from the VA of what other 
facilities have used, scheduling practices similar to those at 
the Phoenix VA hospital? I, for one, would like to know if my 
own VA hospital, the one that serves my area, is using the same 
practices.
    Dr. Lynch. I believe VA is conducting a nationwide audit. I 
don't believe that there is any intention not to share that 
with Congress when it is completed.
    Mr. Takano. Well, I appreciate that. And, again, this audit 
is the very issue that I'm sort of raising, about how do we get 
a good audit.
    And, Mr. Chairman, that concludes my questioning. I yield 
back.
    The Chairman. Thank you.
    Dr. Roe, you're recognized for 5 minutes.
    Mr. Roe. Thank you, Chairman and Ranking Member.
    I'm a medical--I've served at a medical battalion. I'm a 
veteran, a physician, and I trained at a VA. So I've had--some 
of my training was at a VA. And it's disturbing to me right now 
that we've created this uncertainty among our veterans in the 
country. I think we've lost a lot of trust in this country.
    And I want to ask, do you, Dr. Lynch, agree with the 
interim report that the IG just produced that we have today? Do 
you agree with the findings?
    Dr. Lynch. Congressman, I do.
    Mr. Roe. Okay. You agree with those.
    And then we have a situation where you say 1,700 veterans 
now are going to get care. Why in the world do we have to have 
hearing after hearing after hearing? I mean, we've done this 
now at--now we're here on a Wednesday night, having a hearing 
now that 1,700 veterans--why wasn't this just done?
    And what I want--let me just read this to you right here. 
The length of time these 1,700 veterans wait for appointments 
prior to being scheduled or added to the electronic waiting 
list will never be captured in any VA wait-time data because 
the Phoenix HCS staff had not yet scheduled their appointment 
or added them to the electronic waiting list. It's the ultimate 
catch-22.
    And let me also ask you, here are people out here--and this 
is, I think, what troubles me the most. Look, I get being 
overworked, having more work than you can do, patients than you 
can take care of. I got that. I understand that completely.
    What I do not understand is creating a list right here that 
have people waiting until they can get on another list to show 
that they can get an appointment in the time that you--the 
metrics the VA put up, and then someone gets a bonus, benefits, 
when veterans are suffering.
    Is that what happened? I think it is.
    Dr. Lynch. Congressman, as I mentioned earlier----
    Mr. Roe. Is that what happened? I mean----
    Dr. Lynch. I think we elevated a performance measure to a 
goal. I think people lost sight of the real goal of VA, which 
is treating veterans. They began to focus on achieving a 14-
day--achieving care within 14 days.
    Mr. Roe. I agree with you.
    Would you say that those particular goals right there that 
the VA set up--and then, obviously, you had people playing 
games with it--hurt veterans?
    Dr. Lynch. Congressman, they were flawed measures that 
became goals----
    Mr. Roe. Well, do you think----
    Dr. Lynch.--and it should not have happened.
    Mr. Roe. It should not have happened. Do you think it's 
happening around the country in other VA centers now? Are other 
people being----
    Dr. Lynch. I think the evidence--I think the evidence from 
the IG report suggests that this could be a systemic problem. 
We need to focus, and we need to get the veterans seen in 
timely fashion.
    Mr. Roe. What I don't understand is, as a veteran, as a 
doctor, as a practitioner, how you can stand in a mirror and 
look at yourself in the mirror and shave in the morning and not 
throw up, knowing that you've got people out there--and I can't 
go to the VA. I make too much money. I'm perfectly okay with 
that. I have good insurance.
    But how in the world--I see some of these people out there. 
They live in my communities. And they can't get in, and they're 
desperate to get in. And someone who's making $180,000 a year 
gets a bonus for not taking care of the veterans. I don't get 
that.
    Dr. Lynch. Congressman, what's happened is unacceptable. 
But I have to go beyond that, because I have to figure out how 
to fix the system. And that's my goal and purpose, is to 
understand the problem and assure that it doesn't happen again.
    Mr. Roe. Well, I certainly, Dr. Lynch, thank you for that.
    The next question I have is to the panel, and it's not 
necessarily you I'm directing it. Why would any information we 
ask for be withheld? Because that also creates an uncertainty 
among us here. If you don't give us the information, I'm 
thinking, well, there's something they're trying to hide.
    Why wouldn't you just turn over the documents and they are 
what they are, just tell the truth? Is there a reason? I mean, 
I can't--for the life of me, I can't understand why there 
wouldn't be one thing that the chairman and the ranking member 
ask for that they don't have right in front of them right now.
    Ms. Mooney. Congressman----
    Mr. Roe. Because, in my mind, I'm thinking right now 
they're hiding something from me, and I have no reason to 
believe you're not.
    Ms. Mooney. Congressman, our goal--our goal is to be open 
and transparent and provide as much----
    Mr. Roe. That's not, when the documents are not coming in--
Ms. Moody, excuse me. Respectfully, if that were the goal, the 
chairman would have all the documents he asked for.
    Ms. Mooney. Respectfully, sir, the Office of General 
Counsel responded to the subpoena in accordance with the 
subpoenaed documents.
    Mr. Roe. I don't--well, I strongly disagree with that.
    Ms. Mooney. And we continue to work with staff on the few 
remaining--the few documents under discussion, as well.
    Mr. Roe. My time has expired. Maybe we can get a second 
round. Thank you, Mr. Chairman.
    The Chairman. Ms. Brownley, recognized for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    And I appreciate all of you being here to answer the 
committee's questions this evening.
    Mr. Chairman, I share your frustration. I'm very troubled 
by the slow pace of the VA's response to this crisis. What has 
happened in Phoenix and what is clearly happening at other 
facilities across this country, in my opinion, is unforgivable. 
We need decisive action now. Well-stated and good intentions 
just won't pass the muster. And as the Ranking Member Michaud 
stated in his opening remarks, we must have accountability, 
wherever it leads us.
    And I sincerely believe that everyone in this room wants to 
ensure that our veterans receive the best possible care in a 
timely manner. But we will only achieve that goal when we have 
honest and open lines of communication from the VA. Our 
veterans deserve nothing less. And from the top down and the 
bottom up, the VA needs to level with this committee, it needs 
to level with our veterans across the country, it needs to 
level with the American people about what has happened and how 
we are going to fix it. And hiding the truth is absolutely 
unforgivable.
    And the damages are compounded when we don't act quickly 
and decisively to learn all of the facts so that we can then 
act upon them. We need the truth, and we need the VA to be 
proactive, not reactive, and we need the truth now.
    And I just wanted to make that statement. And I will ask my 
first question to Dr. Lynch.
    Dr. Lynch, the chairman asked a question about the Greater 
West Los Angeles facility, and you answered some of his 
questions. I wanted to follow up on that. Given the fact that 
we are going to have a nationwide audit, I want to know the 
progress of those audits, and particularly as it relates to the 
West L.A. facility.
    And I also want to know the steps that were taken in 
Phoenix with regards to destroying the work product, destroying 
the documents, after patients were inputted into the electronic 
system. Is that still occurring? Is that still a practice 
that's occurring in--I know not in Phoenix, but in other 
locations across the country?
    And how are we actually handling, you know, patients right 
now who are waiting to be seen? You talked about the 1,700 
veterans in Phoenix, but what about veterans across the country 
who are waiting for appointments, as well?
    Dr. Lynch. Congresswoman, let me try to take your questions 
in order.
    The audit that has been going on by VHA across our system 
began a week ago. The first phase was focused on medical 
centers and community-based outpatient clinics serving greater 
than 10,000 patients. It is my understanding that the review at 
Greater Los Angeles has already occurred. I have not seen those 
results yet.
    At the Secretary's insistence, that review has now been 
extended to all VA care facilities. I believe that second phase 
has been in process last week and this week.
    Regarding other veterans across VHA, a process has been in 
place. Medical centers, all medical centers, have been asked to 
identify patients that have been placed on the wait list, 
patients who have been waiting for care. They are charged to 
submit that list to VA. And they are then going to be asked to 
review their resources. Can we provide care internally? If we 
can't, the plan is to contact those veterans, offer them care, 
if we can, in VA. If not, offer them care outside of VA.
    Ms. Brownley. And how long do you think that will take?
    Dr. Lynch. I don't have the time course. I know that the 
process has already been initiated, but I can't tell you 
exactly how long that's going to take.
    Ms. Brownley. But----
    Dr. Lynch. But I think the plan is that it should be done 
quickly. We appreciate your concern that we should not have 
veterans waiting.
    Ms. Brownley. And, I mean, how much time are you going to 
spend assessing the situation before we would actually contact 
veterans in other parts of the country?
    Dr. Lynch. I believe the plan was that the assessment 
should be completed within a week or less so that we can begin 
assessing our resources and contacting veterans.
    Ms. Brownley. Okay. Thank you.
    So the other question that I had--and maybe this is for the 
Assistant Secretary Mooney. Oh, I apologize. I yield back. 
Hopefully I'll have another chance.
    The Chairman. Thank you.
    Mr. Flores, you're recognized for 5 minutes.
    Mr. Flores. Thank you, Chairman Miller.
    I thank the panel for joining us today.
    When the VA OIG went to Phoenix to look at what was 
actually happening there, they did what auditors typically do. 
They take a statistical sample of files, and they look to see 
what was reported and then what was actual.
    And in the 226 that they--the sample set was 226 veterans, 
in this particular case. The original report from the Phoenix 
VA facility was that these 226 veterans waited an average of 24 
days for their first primary care appointment and only 43 
percent waited more than 14 days.
    When the IG did their study of what actually happened on 
those same 226 cases, they determined that those same veterans 
actually waited an average of 115 days, with 84 percent waiting 
more than 14 days. And so, based on what they found in that 
sample, you have to extrapolate that and assume that all the 
appointment process is as broken as those 226 are.
    So my question is this. Do we know who is responsible for 
reporting fraudulent numbers to the VA's central office? I 
mean, when you look at a VHA facility, who in that facility is 
responsible for reporting those numbers up the chain, so to 
speak?
    Dr. Lynch. Mr. Chairman, I think--I mean, Congressman, I'm 
sorry, I believe the responsibility for reports from the 
facility lie with the medical center director and with the 
network director.
    Mr. Flores. Okay.
    I think you touched on this a minute ago. Now that we know 
who's doing it, what is the driver that causes them to engage 
in that activity?
    One of the things that I've learned recently today based on 
another article that came out is that 50 percent of VHA 
executives' performance reviews are based upon wait times. Is 
that one of the primary drivers that's causing this misbehavior 
to occur?
    Dr. Lynch. Congressman, I don't know to what percent the 
wait-times measures contributed to the bonus of medical center 
directors and VISN directors. . I don't have that information.
    I will reinforce what I said earlier. I think that, while 
well-intended, we had a performance measure that became a goal, 
and that created the potential that that information could be 
misused.
    Mr. Flores. I mean, the last time I saw an example of this, 
it was Enron, where the bonus system drove behavior. And we all 
know what happened at Enron. And I'm not suggesting that the VA 
is Enron, but it's something that I think that we need to look 
at, in terms of a flawed bonus system driving bad behavior.
    That leads us to the next question. I mean, we've just 
said, or we've just heard testimony so far in this hearing that 
veterans really don't have to wait because there's a fee-for-
service program where the VA will send them out to private-
sector doctors. So if that's the case, so the VA can do this, 
why, then, do we still have the long waiting list? Is that 
because they're not really allowed to go out for fee-for-
service?
    Dr. Lynch. I think that we had tried, prior to the 
information we had received. We had felt, however, that our 
core business was the delivery of primary care. We had tried to 
keep that within VA.
    In retrospect, I think that was not a wise move. I think we 
did have the potential that patients were waiting. And we 
should have provided fee-basis services while we were trying to 
improve the processes so we could provide that care in-house.
    Mr. Flores. Okay.
    There's a publication that I don't read very often, but 
it's called The Daily Beast. And their headline of a report 
they ran about 11 o'clock last night says, ``Texas VA Run Like 
a 'Crime Syndicate,' Whistleblower Says.''
    It says, ``Last week, President Obama pledged to address 
allegations of corruption and dangerous inefficiencies in the 
veterans' health care system. But before the President could 
deliver on his pledge, the scandal has spread even further. New 
whistleblower testimony and internal documents implicate an 
award-winning VA hospital in Texas in widespread wrongdoing--
and what appears to be systemic fraud.''
    What they're--the facility they're talking about here is a 
facility in Temple, Texas. Are you aware of any similar issues 
that occurred in Phoenix as having occurred in Temple?
    Dr. Lynch. I'm not aware at this time.
    Mr. Flores. Okay. I would urge you to read this particular 
article, because they actually post pictures of the email 
chains that make it look like there is a coverup. In 
particular, there was one doctor who would just arbitrarily 
cancel appointments and then those appointments would have to 
be rescheduled.
    So, thank you. I yield back.
    The Chairman. Ms. Titus, you're recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. And thank you for 
holding this committee meeting late to accommodate those of us 
who had to fly back from the west coast. We appreciate that.
    Like my colleagues, I, too, want to get to the bottom of 
this waiting-list problem in Phoenix and across the country. 
And many of my questions have been answered. The IG is not 
going to release, as I understand it, the names of the other 
facilities that are being investigated, primarily to protect 
the whistleblowers. So I've asked that Nevada be added to that 
list, because I want to be sure that the veterans there are 
getting the kind of services that they deserve and there aren't 
any secret waiting lists.
    I want to ask, kind of, a different line of questions 
because I think they go to the priorities. And I think 
priorities are, kind of, some of the problem that we're facing 
here as we look at the waiting-list issue.
    Dr. Lynch, you mentioned that you went to Phoenix to check 
into the accusations that 40--and that was the number at the 
time--people had died as a result of this secret waiting list. 
You went on to note that you went on Thursday, April 17th. You 
spent the Easter weekend there with your wife. And then you 
were joined by two staffers on Monday, April 20th, to begin 
working on the issue and, in your words, understanding the 
climate.
    I would just ask you, Doctor, to tell me how you could've 
possibly thought it was appropriate to turn such a critical, 
serious mission into a personal holiday. I mean, don't you just 
get that, that you were postponing looking into something that 
should've been looked into right away?
    Dr. Lynch. Congresswoman----
    Ms. Titus. And, also, tell me, then, how I can explain your 
actions to veterans who are worried about getting an 
appointment for possibly a lifesaving colonoscopy, not a tee 
time.
    Dr. Lynch. Congresswoman, I do not play golf, to begin 
with. And I take my job very seriously. It was the Easter 
weekend; I thought it was appropriate that my wife could join 
me. I spent Thursday and Friday working at the VA. I spent 
Monday and Tuesday working at the VA. There was nothing I could 
do over the weekend.
    I subsequently went back to get more information, 
Congresswoman. I think I took the issues in Phoenix very 
carefully, very seriously. And I think what we found was shared 
with and confirmed by the inspector general. And I think, 
because of what I did in Phoenix, we were able to get people on 
the ground to begin the process of making recommendations for 
change.
    So I'm sorry you misinterpreted my intentions. My 
intentions are to help veterans, to assure that they get good 
care, and to understand where our system is failing.
    Mr. Titus. That is our intention, too. And we feel like we 
need to work 24 hours a day, 7 days a week to make this happen, 
not taking holidays off. But I appreciate that.
    And I yield back.
    The Chairman. Thank you very much.
    Mr. Denham, you're recognized for 5 minutes.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Lynch, I just want to make sure that this is clear. You 
believe Phoenix is an isolated incident, or you believe this 
entire problem is a systemic issue?
    Dr. Lynch. I believe the inspector general has made it 
clear that this is a systemic issue, Congressman.
    Mr. Denham. Okay. Because you originally started your 
testimony--this is something that goes back to 2005. We've had 
investigations over and over and asked for many different--
there are 18 reports that have been identified coming back. You 
said in your testimony, October-November of 2012, there was a 
report that came back, and then we were working on this in 
2013.
    You talked about a glitch in the system. This does not seem 
to be a faulty computer system that we're dealing with here.
    Dr. Lynch. Congressman, I think I've made it clear that I 
think it's important that we need to keep our eye on what is 
the mission of VA.
    And I think that we have elevated performance measures to 
goals. I don't think that's a glitch. I think that's a mistake, 
and I think that's something that needs to be corrected. I 
think we need to use performance measures for what they should 
be used for: management tools to identify where we have demand, 
where we don't have capacity, and how we're going to use our 
resources.
    Mr. Denham. Sir, I don't think that anything is clear, at 
this point. And I think that's why you see so much frustration 
coming out of this committee. The only thing that's clear right 
now is that there are 40 brave soldiers that served that 
country proudly that died while waiting on a list. That's the 
only thing that's clear.
    What's unclear is how much further this goes, how many 
other VA centers, how many other veterans are waiting. And we 
expect answers. That's all we're looking for here.
    So you've started audits now beyond Phoenix.
    Dr. Lynch. Yes----
    Mr. Denham. Forty-two audits have been started?
    Dr. Lynch. I'm sorry, sir?
    Mr. Denham. Forty-two audits have been started now?
    Dr. Lynch. No, sir. We have reviewed, I believe, all of our 
151 medical centers and, additionally, our major CBOCs. And 
we're now in the process of reviewing all of our health care-
providing facilities.
    Mr. Denham. So how many of them have been completed thus 
far?
    Dr. Lynch. I don't have that number, but certainly well 
over 200.
    Mr. Denham. And your intent is not to share that with 
Congress?
    Dr. Lynch. I don't believe I said that.
    Mr. Denham. Well, let me ask you, then. Is your intent to 
share that with Congress?
    Dr. Lynch. I--while I don't have responsibility for that 
particular report, I don't know why we would not share it with 
Congress.
    Mr. Denham. It is my understanding that Palo Alto, in my 
area, has already conducted their audit. I had sent a letter on 
May 19th asking for not only an audit but a review. And now I'm 
told by the Palo Alto unit that it has been completed but we 
are unable to receive that information. So I'll make sure you 
get a copy of this letter, as well.
    But I think every member of this committee, I think every 
Member of Congress is going to be looking at their local VA 
centers and wanting to know the truth on what's happening in 
their communities.
    Dr. Lynch. I'm sure they are. And that is proper and right.
    Mr. Denham. Why is the VA returning money every year back 
to Congress?
    Dr. Lynch. Congressman, I can't comment on that. I don't 
manage the budget.
    Mr. Denham. Why are we not using local doctors to come in 
and fill some of the voids that we're seeing in some of these 
different facilities?
    Dr. Lynch. We have been using local doctors. We do have a 
non-VA fee care program. We have implemented PC3, that is a 
program which uses community providers to provide care.
    Mr. Denham. I will share this letter with you today, but I 
know of doctors in my area, in Stanislaus and San Joaquin 
Counties, that have asked to help out our veteran population. 
There's no reason, if there's money in the system and there's 
waiting lists, why we wouldn't be utilizing more doctors to 
fulfill those claims.
    Dr. Lynch. And we are going to be doing that.
    Mr. Denham. Mr. Chairman, I'll present one of these letters 
for the record and provide Mr. Lynch the other one.
    I yield back.
    The Chairman. Without objection.
    The Chairman. Ms. Kirkpatrick, you are now recognized for 5 
minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Dr. Lynch, we all know there's a problem here, and I 
appreciate you're making it a priority to fix it and come up 
with solutions.
    I'm the only Arizonan on this committee, and I'm also 
ranking member on the Oversight and Investigations committee, 
so I've been hearing from lots of veterans in Arizona. And 
that's my focus right now, even though I did call for a 
systemwide audit. But I want this fixed in Arizona so that we 
can get the veterans the care that they want and they need in a 
timely way, and that's what I'm hearing you say.
    I really think listening to our veterans is key to 
resolving this issue. So my first question is, when you did 
your assessment at the Phoenix VA, did that include talking to 
the veterans who had experienced these delays?
    Dr. Lynch. I did not talk to any veterans during the course 
of that visit. I have subsequently received a phone call from 
one veteran who has had troubles with access, and I am working 
with him to assure that he gets the care he needs.
    Ms. Kirkpatrick. May I just suggest that we include our 
veterans maybe a little more in this process. I share somewhat 
the concern that Mr. Takano expressed, about how do we know 
we're getting accurate information. And I sometimes think 
getting it from a couple sources helps with that process. And 
I'm certainly hearing from a lot of----
    Dr. Lynch. I don't disagree with you. I think the veteran 
is our customer. I think we can learn a lot by talking to the 
veteran and the experience they have.
    Mrs. Kirkpatrick. And in verifying what the records show in 
terms of wait time, as well.
    Dr. Lynch. Yes.
    Ms. Kirkpatrick. You have identified the 1,700 patients who 
will be contacted by Friday. Can you tell us a little bit more 
of what ``contact'' means? Does that mean an email or phone 
call? I mean, what does ``contact'' mean by Friday?
    Dr. Lynch. We are going to be using the central business 
office call center out of Topeka, Kansas. We will make an 
attempt to contact by telephone every veteran that is on that 
list.
    If we cannot contact them, we will be sending them a 
registered or certified letter to assure that we have gotten in 
touch with them, that we have determined what their care needs 
are, and we have arranged for those care needs as necessary.
    Ms. Kirkpatrick. You know, I represent a large rural 
district. A lot of places don't have access to broadband, and a 
lot of places don't have mail delivery. I'm concerned that the 
rural veterans that I'm hearing from aren't going to be 
contacted in a timely way, and maybe I can work with you about 
some suggestions.
    But I know that the VSOs would like to be very involved in 
this process. And sometimes they are the point of contact in 
these rural communities. So I'd just offer that as a 
suggestion.
    Dr. Lynch. Thank you. At this point, we are open to any 
suggestions that improve our process and help us contact the 
veterans.
    Mrs. Kirkpatrick. Now, my second question goes back to the 
original purpose of this hearing, which was responding to our 
subpoena. So, during your first visit to Phoenix, which was 
April 17th to 23rd----
    Dr. Lynch. Yes.
    Mrs. Kirkpatrick [continuing]. Did you receive or send any 
interim work product that in any way referenced the destruction 
or deletion of an alternative patient wait list?
    Dr. Lynch. To the best of my knowledge, Congresswoman, I 
don't believe I communicated any of that by email. I believed I 
communicated it to VHA central office when I came back, and I 
believe I communicated it to the committee staff the following 
day.
    Mrs. Kirkpatrick. Okay. Thank you.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Runyan, you're recognized for 5 minutes.
    Mr. Runyan. Thank you, Mr. Chairman.
    Something I read in the OIG report today touches on this 
credibility issue, and I want to ask you a couple questions 
about it.
    And, first, I'm going to paraphrase it. It's the last 
paragraph of page 4, where it says, ``Certain audit controls 
within VistA were not enabled. This limited VHA and the OIG's 
ability to determine whether or not any malicious manipulation 
of the VistA data had occurred.'' To ensure proper oversight 
ability is not compromised--and the IG asked that it be turned 
back on.
    Are they turned back on as of this day throughout the 
country?
    Dr. Lynch. I don't know, Congressman.
    Mr. Runyan. Do you know what those switches----
    Dr. Lynch. I read the report----
    Mr. Runyan.--were, or the audit controls would've been?
    Dr. Lynch. I read the report at 12:30. I'm not familiar 
with the audit controls. I can assure you I will find out, I 
will understand them, and they will be activated at the request 
of the IG.
    Mr. Runyan. And, following up on those questions, as part 
of your proprietary software, do they have to be turned off, or 
do they come out of the box in the ``on'' position? Was someone 
asked to do that?
    Dr. Lynch. I don't know.
    Mr. Runyan. I would love to know that answer.
    Dr. Lynch. But those are good questions. Those are 
questions we need to ask. I will extend it. I will indicate 
that not only do we need to understand whether that was 
occurring in Phoenix and whether it's been corrected, we need 
to understand whether that was occurring elsewhere in our 
system, as well.
    Mr. Runyan. Because it really not only compromises our 
ability to do our oversight job, it compromises your internal 
ability to do your own thing.
    Dr. Lynch. Congressman, we are attempting to put in place 
audit tools, and, clearly, if there's anything that makes those 
audit tools more effective, we are going to be assured--we are 
going to assure that they are functioning.
    Mr. Runyan. I look forward to hearing that.
    I have one question, going back to Mr. Huff.
    Your notes were given to the general counsel, they were not 
destroyed, correct?
    Mr. Huff. Correct, Congressman.
    Mr. Runyan. Thank you.
    And, Chairman, I'll yield back.
    The Chairman. Thank you very much.
    Mr. Ruiz, you're recognized, 5 minutes.
    Mr. Ruiz. Yes, sir. Thank you, Mr. Chairman, for holding 
this hearing.
    I am deeply disturbed and furious about the recent reports 
of forged recordkeeping and veterans having the quality of 
their care negatively impacted due to long waiting times at VA 
facilities. The veterans in my district and across the Nation 
deserve better.
    To begin the healing process of this broken trust, the VA 
must answer to this committee and, more importantly, to the 
veterans who served our country. Any VA leader or whoever knew 
about this breach of public trust and did nothing should be 
held accountable or resign.
    I'm an emergency medicine doctor and know firsthand that 
delays for much-needed care can harm the patient. So let's take 
care of our patients. And this is the prescription to begin 
that process and what should be your priority right now:
    First, do the right thing and immediately ensure that no 
other forged waiting list exists anywhere else.
    Second, give our veterans the care they need as soon as 
possible and without delay. No more harm to our veterans.
    Third, conduct this systemwide honest and transparent 
investigation and hold those found to be dishonest and 
negligent accountable. And help those who serve our veterans 
with excellence and distinction hire and train new employees 
who will show our veterans the respect and honor that they 
deserve.
    As a physician, public servant, and, more importantly, as 
an American, I am committed to ensuring that all veterans 
receive the medical care they have earned and need when they 
need it and that those responsible are held responsible.
    And as a public servant and advocate for veterans, I have 
written a letter to Director Stan Johnson, who oversees the 
Loma Linda VA health care System, to obtain additional 
information on how long veterans are waiting for care in my 
region.
    Can you assure me that the Loma Linda VA health care System 
in my district is included in a systemwide honest and 
transparent investigation to ensure the veterans in my district 
are getting the care that they have earned and need?
    Dr. Lynch. To the best of my knowledge, Congressman, Loma 
Linda has been included in that process.
    Mr. Ruiz. And from your expectations and performance 
metrics, can you comment on whether or not we have any forged 
waiting list there?
    Dr. Lynch. I cannot comment, Congressman, at this time. I 
have not looked specifically at the data from Loma Linda.
    Mr. Ruiz. Okay.
    Well, I look forward to working with you to ensure that the 
veterans in my district and everywhere else will get the care 
that they need when they need it and we can lower the waiting 
time so that this never happens again to any of our veterans.
    Dr. Lynch. I cannot disagree with you, Congressman.
    Mr. Ruiz. Thank you very much.
    Thank you, and I yield back my time.
    The Chairman. Thank you, Doctor.
    Dr. Benishek, you're recognized for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Dr. Lynch, what's the name of the person who destroyed the 
waiting list?
    Dr. Lynch. I--first of all, I don't believe they were 
waiting lists. I think they were----
    Mr. Benishek. Well, who destroyed the documents under 
question here, the name of the person?
    Dr. Lynch. They were schedulers who were working on the 
process of----
    Mr. Benishek. Well, do you know their names?
    Dr. Lynch. No, I don't.
    Mr. Benishek. Could we find out their names?
    Dr. Lynch. I don't know whether we can or not, Congressman. 
We can try.
    Mr. Benishek. Well, you know, to me, you talk about the 
motive for this, and that the motive is that we're trying to do 
this right, you know, by complying with the rules and 
superfluous list, and there's danger of loss of getting their 
information. But that may not be the motive. The motive may be 
they're complying with, you know, somebody above who wants the 
waiting list to be shortened. So I think it's important that we 
identify the people that actually did the destruction of these 
things.
    Ms. Mooney, who is the--what's the name of the general 
counsel that recommended that we don't have the items here we 
don't have?
    Ms. Mooney. Our general counsel, Will Gunn, is working with 
the committee on----
    Mr. Benishek. Will Dunn is the name of the gentleman that 
says that this is a matter of privilege? His name is Will Dunn; 
is that what you're saying?
    Ms. Mooney. Our general counsel is Will Gunn.
    Mr. Benishek. All right. Thank you.
    Have any of you--Dr. Lynch, who is your immediate 
supervisor?
    Dr. Lynch. My immediate supervisor is, at the moment, Dr. 
Robert Jesse. We do not have a Deputy Under Secretary for 
Health for Operations and Management----
    Mr. Benishek. Have you had any conversation with--or any 
communication at all with Dr. Jesse about your testimony here 
today prior to----
    Dr. Lynch. I met with him briefly this afternoon so that I 
understood exactly what our way forward was following the 
release of the IG report.
    Mr. Benishek. Did he have any recommendation for your 
testimony?
    Dr. Lynch. Only to explain where we were going and how we 
were going to address----
    Mr. Benishek. Do you have any documentation of your 
conversation?
    Dr. Lynch. No, I don't.
    Mr. Benishek. Ms. Mooney, who is your immediate supervisor?
    Ms. Mooney. Sloan Gibson, our Deputy Secretary.
    Mr. Benishek. Have you had any conversation with Sloan 
Gibson about your testimony here today?
    Ms. Mooney. Brief, in passing, in the morning.
    Mr. Benishek. But no documentation of any of that 
communication?
    Ms. Mooney. No, sir.
    Mr. Benishek. Mr. Huff, who's your immediate supervisor?
    Mr. Huff. Mr. Mark Hone.
    Mr. Benishek. Mark--what's his last--Mark who?
    Mr. Huff. Hone.
    Mr. Benishek. Okay. Have you had any conversation with Mr. 
Hone about your testimony here today?
    Mr. Huff. Yes, sir.
    Mr. Benishek. And what was the nature of that conversation 
or communication?
    Mr. Huff. To provide clear, accurate, and honest responses 
to your questions.
    Mr. Benishek. You know, it is very troubling to me that we 
talk about accountability and making sure we know the facts 
here, but when you don't know the name of the people that 
actually did the destruction, it seems like that would be the 
first thing, when you went to Phoenix, you'd find out who did 
it.
    Dr. Lynch. So, Congressman, my goal in going to Phoenix was 
to understand the process. I knew that the inspector general 
was there. They were there to assess intent and to identify if 
there was responsibility or accountability for----
    Mr. Benishek. But without names of people, how does that 
occur? I mean, how does--don't you ask the person, why did you 
destroy this evidence, these lists, why did you do it?
    Dr. Lynch. These--I did not speak to any of the 
schedulers----
    Mr. Benishek. Did anyone on your staff do that?
    Dr. Lynch. Pardon?
    Mr. Benishek. Did anyone on your staff--I mean, you 
mentioned that you found about it through a member of your 
staff.
    Dr. Lynch. I don't know whether the staff had spoken 
directly with the schedulers who may have been involved inthe--
--
    Mr. Benishek. What was the name of that staff member again?
    Dr. Lynch. Pardon?
    Mr. Benishek. The name of the staff member?
    Dr. Lynch. I was there with Dr. Mike Davies.
    Mr. Benishek. So did Mr. Davies talk to anybody at the 
Phoenix staff that may have actually done the destruction?
    Dr. Lynch. I don't know, Congressman.
    Mr. Benishek. I just don't understand how you can conduct 
an investigation about the alleged destruction of documents and 
not actually talk to anybody or know the name of anybody who 
actually did the destruction or their motive.
    Dr. Lynch. I felt that was the IG's function. They were 
there to identify----
    Mr. Benishek. Well, no, I thought you went there to figure 
out what was going on.
    Dr. Lynch. I was there to understand the process. And I 
think I accomplished----
    Mr. Benishek. But wouldn't the process be identifying the 
person who actually did the destruction of the documents?
    Dr. Lynch. I did not----
    Mr. Benishek. Don't you have any interest in who did it?
    Dr. Lynch. I did not think that was necessary at the time, 
Congressman----
    Mr. Benishek. It would seem to me that'd be the first thing 
you'd ask. I mean, maybe I'm just simpleminded, but there's a 
question about destruction of documents, and you don't even 
know who did it or their motive.
    Dr. Lynch. I believe I understood the motive at the time.
    Mr. Benishek. Well, but your contention to me is that the 
motive was just and within the realm of the VA and protecting 
the patients' records, where I'm suggesting to you that there's 
a possibility that there's motivation within the VA that 
encourages people to shorten waiting lists so that they get 
bonuses. Do you understand my concern about that?
    Dr. Lynch. I understand your concern.
    Mr. Benishek. Wouldn't that be something that you might be 
concerned about, that you might question the people that were 
doing the destruction if they had any communication with their 
supervisors, that they might be pressured to do things that 
would allow their supervisors to get bonuses?
    Dr. Lynch. That is a discussion the IG is having.
    Mr. Benishek. Well, why wouldn't you have that discussion?
    Dr. Lynch. Because my goal, Congressman, was to understand 
the process so that we could----
    Mr. Benishek. But you can't understand the process if you 
don't understand who did it and their motivation.
    I yield back my time.
    The Chairman. Thank you.
    Ms. Kuster, you're recognized for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman.
    And thank you to our witnesses for appearing hearing today 
this late in the evening.
    I share the horror, frankly, of the allegations coming from 
the VA facilities around the country, including the VA Phoenix 
facility, on the long patient wait times and, more importantly, 
the alleged misreporting of those patient wait times and what's 
been referred to in the report as gaming of scheduling.
    Needless to say, I think this is not a partisan issue, but 
we find this completely unacceptable. And I appreciate your 
attempt to determine what was wrong and who's responsible and 
how to move forward.
    The question that I have is, as you've raised a number of 
times in your testimony, Dr. Lynch, a question of integrity and 
a question of accountability. Because, obviously, the interim 
IG report indicates mass systemic problems with long patient 
wait times and inaccurate reporting and this gaming that's been 
going on.
    My question is, this has been going on, apparently, since 
2005, I assume well before you were in your current positions, 
well before Secretary Shinseki was in his current position. But 
in recent months has Secretary Shinseki, in his role as leader 
of the VA, been aware of these systemic problems? And why were 
these issues not immediately addressed, given this long line of 
IG reports over the past 10 years?
    Dr. Lynch. Congresswoman, I think that, to a certain 
extent, we failed to challenge our assumptions. We believed our 
numbers. We felt that the IG reports and patient complaints 
were exceptions and not rules. I acknowledge that, in 
retrospect, that should not have happened.
    I would also indicate that, during this time, there were 
people who were trying very hard, with the best of intentions, 
to identify methods by which we could monitor veteran access to 
VA care. It has been a challenge. We have tried multiple 
different models. It has been a challenge for the private 
sector. There isn't a right answer here.
    We were trying to find a solution. I believe we probably 
incorrectly assumed we had a solution. It has become painfully 
obvious that we had set our system up to give us incorrect 
information, and we need to assure that doesn't happen again.
    Ms. Kuster. And in terms of my question about Secretary 
Shinseki's role, was he involved in this?
    Dr. Lynch. The Secretary has been aware and, I can assure 
you, has been asking questions and directing activities to 
assure that we move to a quick resolution of this problem.
    Ms. Kuster. And with regard--I want to go back to one of 
the documents in the report that's a Department of Veterans 
Affairs memorandum, April 26th, 2010. It's one of the 
attachments, Appendix E.
    And there was a gaming strategy that concerns me. As a way 
to combat missed opportunity rates, some medical centers cancel 
appointments for patients not checked in 10 to 15 minutes prior 
to their scheduled appointment time.
    Some of the stories that we've heard about are veterans who 
think they have an appointment; they go to the appointment, and 
they're told they don't have an appointment, even if they have 
a card with an appointment. It seems to me that this has become 
an issue that gets exacerbated. Then these people are not being 
seen in a timely way, in terms of the continuity of care.
    Have you had reports from physicians of their frustration 
trying to treat our veterans in a timely, compassionate, and 
high-quality way?
    Dr. Lynch. I have not had individual complaints from 
physicians. I was a VA physician before I took this position. I 
valued my encounters with veterans. I hope that I have provided 
good care.
    I share your concerns about any mechanism that games our 
system, not only because it hurts a veteran but because it 
doesn't give us the information we need to make our system 
better.
    Ms. Kuster. Thank you very much.
    I yield back my 2 seconds.
    The Chairman. Mr. Huelskamp, you're recognized for 5 
minutes.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    The first question I have would be for Ms. Mooney.
    I believe you've articulated the assertion of attorney-
client privilege and have referenced that numerous times. Would 
you identify for the committee who is the client that you're 
asking for that privilege?
    Ms. Mooney. I would just defer that to the Office of 
General Counsel.
    Mr. Huelskamp. Has that been identified for the committee 
exactly, the client that the attorney-client privilege is being 
asserted by the Office of General Counsel?
    Ms. Mooney. Attorney-client privilege----
    Mr. Huelskamp. Well, there has to be a client, clearly. Who 
is the client? Who is refusing to provide information to this 
committee and to the American public about this issue?
    Ms. Mooney. Mr. Huelskamp, I know that the Office of 
General Counsel is working with the committee staff on that.
    Mr. Huelskamp. Okay. So you do not know, or refuse to 
reveal. Do you know----
    The Chairman. Mr. Huelskamp----
    Mr. Huelskamp [continuing]. Who the client is?
    Ms. Mooney. Mr. Huelskamp, I'm not with the Office of 
General Counsel.
    The Chairman. If the gentlemen will yield?
    Mr. Huelskamp. Yes, sir.
    The Chairman. All we know is that it is one of the eight 
people who has, in fact, been subpoenaed. That is--we haven't 
been given a name yet. But to answer your question, it is one 
of the eight people.
    Mr. Huelskamp. Thank you, Mr. Chairman. In my understanding 
of that privilege, we get the privilege of knowing who the 
client is. And that should've been noted in the original 
refusal to provide the information.
    I'd like to return to Dr. Lynch, as well, and returning to 
your trip to Phoenix. And you're apparently not surprised by 
the OIG report?
    Dr. Lynch. No, Congressman, I'm not.
    Mr. Huelskamp. And what actions have you taken in the 5 
weeks since that report? If you could describe those--or since 
your visit?
    Dr. Lynch. I'm not sure it's--well, maybe it is 5 weeks.
    We have had two teams in Phoenix since my visit, one 
working with the scheduling team, the other working with the 
clinics to improve their care-delivery process.
    Mr. Huelskamp. Have they identified the 1,700 individuals 
that were revealed in the OIG report?
    Dr. Lynch. We did not identify the 1,700, Congressman.
    Mr. Huelskamp. You've described the, obviously, electronic 
waiting list, which is not secret. You've referenced numerous 
times about the interim, or intermediate list. How many names 
were on that interim, intermediate list?
    Dr. Lynch. I don't know, Congressman, because I suspect 
there were multiple lists as patients were cancelled. The list 
of the patients that were cancelled were printed out and the 
patients were rescheduled.
    Mr. Huelskamp. And these were all destroyed?
    Dr. Lynch. To my knowledge, they were destroyed, 
Congressman.
    Mr. Huelskamp. So no idea how many names were on the 
destroyed interim waiting list?
    Dr. Lynch. They were not available for me to----
    Mr. Huelskamp. Did you observe that?
    Dr. Lynch. Pardon?
    Mr. Huelskamp. Did you see the list?
    Dr. Lynch. I did not. I have----
    Mr. Huelskamp. How did you know it existed?
    Dr. Lynch. I have seen an example of what the list looks 
like.
    Mr. Huelskamp. How did you know it existed?
    Dr. Lynch. Because the people we talked to told us that----
    Mr. Huelskamp. Did you visit with the director of the 
Phoenix clinic about the list?
    Dr. Lynch. I did not. We visited with folks in their 
scheduling office----
    Mr. Huelskamp. Who made the decision to take away her 
bonus?
    Dr. Lynch. I'm sorry?
    Mr. Huelskamp. Wasn't her bonus removed after your visit, 
or rescinded?
    Dr. Lynch. That was, I believe, within the last week. That 
was not my decision. That was the Secretary's decision.
    Mr. Huelskamp. It was rescinded?
    Dr. Lynch. Yes.
    Mr. Huelskamp. But you did not visit at all with the 
director of the clinic when you went to do your investigation?
    Dr. Lynch. There are multiple clinics----
    Mr. Huelskamp. Yes or no, did you visit with the director 
of the clinic?
    Dr. Lynch. Actually, I did.
    Mr. Huelskamp. Tell us the conversation.
    Dr. Lynch. We talked to him about his process of trying to 
improve the availability----
    Mr. Huelskamp. Did you discuss the destruction of the 
interim waiting list?
    Dr. Lynch. No, I did not.
    Mr. Huelskamp. Did you know about it when you visited with 
the director?
    Dr. Lynch. I did.
    Mr. Huelskamp. And you chose not to bring it up why?
    Dr. Lynch. Because it did not appear to be in his area of 
responsibility. His area of responsibility was the clinic. 
Scheduling----
    Mr. Huelskamp. Which just happens to be the waiting list.
    Dr. Lynch. Pardon?
    Mr. Huelskamp. Two other items I'd like to address. In 
addition to the interim list that's been destroyed, there's 
also three other lists. Thank goodness, we have those. OIG 
found those. That's the NEAR tracking report, the screenshot 
paper printouts, the schedule-an-appointment consult. That's 
how we identified 1,700 veterans who were denied care.
    I would say this was a secret. We were lucky, I guess, that 
we found those. Do those types of lists exist throughout the 
entire VA system?
    Dr. Lynch. I don't know.
    Mr. Huelskamp. You're the expert in the process. You don't 
know if there's a NEAR tracking system in other clinics?
    Dr. Lynch. The NEAR list is available to every medical 
center.
    Mr. Huelskamp. So every medical center could have a NEAR 
list with, potentially, another secret waiting list?
    Dr. Lynch. The NEAR list is not secret, but they could 
have----
    Mr. Huelskamp. How did you not know about the list if it's 
not secret?
    Dr. Lynch. I'm sorry?
    Mr. Huelskamp. They identified 1,100 veterans sitting on 
this list who were denied care. Some of them might not be alive 
today because you waited 35 days and did nothing as far as 
changing that.
    I yield back, Mr. Chairman.
    The Chairman. Mr. O'Rourke, you're recognized for 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chair.
    And, Mr. Chairman, I'd like to begin my remarks by sharing 
the frustration expressed so far by the committee members and 
also members of the panel, but also making clear that my 
frustration, at least, does not extend to the providers.
    I think about the providers at the El Paso VHA, many of 
whom--doctors, nurse practitioners, nurses, psychologists, 
therapists, counselors--could be working in the private sector 
for more money, could be working with the Department of Defense 
for more money, could within the VA system be working at other 
VHA facilities other than El Paso for more money. And they're 
working to serve the veterans in our community that I have the 
honor of representing because they want to help them and, in 
many cases, they themselves are veterans.
    So I think that message is too often lost in our justified 
criticism of the management of VA leadership here in 
Washington, DC. at VA leadership within the VISNs, and at some 
of the local VHAs.
    When I hold town hall meetings in El Paso--and I hold one 
every single month, and I hold a veterans-specific town hall 
every quarter--most of the concerns raised at those town halls 
are about wait times. And it flew in the face of the 
information and the data that I was receiving from the El Paso 
VHA, which showed that our wait times were on par with national 
levels and were very close to the targets set by the VA.
    And so what we decided to do was actually hire somebody to 
go and do what many people here suggested, which is to actually 
talk to the veterans and not just listen to them at these town 
hall meetings but actually conduct a scientific survey in El 
Paso. And we surveyed 692 veterans, with an error margin of 
plus or minus 3.8 percent, and found that the variance from 
what the El Paso VHA was reporting for primary and mental 
health care times was wildly different from what our veterans 
were reporting.
    For example, in December 2013, VA reported that 70 percent 
of new El Paso VA patients saw a mental health provider in 14 
days. Our survey showed that 36.5 percent of our respondents 
could not even get an appointment at all and just completely 
dropped out of the system. On average, a veteran's mental 
health care appointment, when it was set, was cancelled once. 
Forty-two percent of our respondents completely put off getting 
mental health care because of the difficulty in obtaining an 
appointment.
    I don't need to draw the connection, but I will, that when 
we delay care, we're often denying care. And this is at a time 
when we're seeing, on average, 22 veterans taking their own 
lives every single day. So this is a life-and-death issue in 
Phoenix, but it's a life-and-death issue in El Paso, and it's a 
life-and-death issue, I'd argue, across the country.
    So as much as I would also like to get to the bottom of 
what happened in Phoenix and know who destroyed which records 
and who made what decisions, I think this is a problem that is 
much larger than just Phoenix, much larger than just El Paso, 
though we see similar problems there, as well.
    So, as the chairman has asked and others have asked, I'm 
asking you to look into the specific issues in El Paso. We'll 
provide you all the data that we collected.
    I'd also like you to look into allegations that we've heard 
in El Paso, confirmed by the OIG's report, that appointments 
are set for veterans who request an appointment, but the 
veteran is never informed that that appointment has been set. 
And so when the veteran does not show up for that appointment 
that he did not know about because no one informed him, it 
shows up on the veteran's record that he declined to come in or 
failed to show up and does not harm the VA's record in terms of 
performance on wait times.
    We have heard that anecdotally oftentimes in El Paso. We're 
seeing it in the OIG report. I hope that you will look into 
that as part of your systemwide audit.
    Lastly----
    Dr. Lynch. Congressman, we are. And I would be happy to 
meet with you personally to get the information that you have, 
that you've obtained from the veterans.
    Mr. O'Rourke. Thank you.
    Dr. Lynch. I would value looking at that.
    Mr. O'Rourke. And I think that's why Phoenix resonates 
throughout this country. Beyond the tragedy of apparently 40 
veterans losing their lives because of gross negligence within 
that facility, it seems to confirm what so many of us are 
hearing every single day in our districts. So I appreciate your 
tenacity in pursuing the facts and reporting those back to this 
committee.
    And, lastly, for Ms. Mooney, on the 29th of April, 
Congressman Pete Gallego and myself sent a letter to the 
Secretary asking specifically about the El Paso VA and whether 
similar practices were conducted there and a very simple 
question about whether a secret wait list was maintained there.
    We have still not received a response to our letter. When 
can we expect a response?
    Ms. Mooney. I know the results of the nationwide audit will 
be forthcoming, and those results will be shared with the 
Congress. And we look forward to answering your response and 
all the Members' responses about individual facilities at that 
time in the very near future.
    Mr. O'Rourke. Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Coffman, you're recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Dr. Lynch, the Office of Inspector General indicated that 
it had received allegations of retaliation against 
whistleblowers in Phoenix. What is VA doing to make sure it 
does not engage in such prohibited personnel practices?
    Dr. Lynch. I'm sorry, I'm not quite sure I understand the 
question. I have--I did not see the allegations regarding 
retaliation. I believe the IG will probably give us a complete 
report about any of those concerns. And it would be my 
expectation that if there was inappropriate retaliation it will 
be addressed.
    Mr. Coffman. What was the name of the doctor, the retired 
doctor, from the Phoenix hospital that was a whistleblower? 
What was his name?
    Dr. Lynch. Dr. Foote?
    Mr. Coffman. Oh, Dr. Foote. How was your meeting with Dr. 
Foote? How did it go?
    Dr. Lynch. I did not meet with Dr. Foote.
    Mr. Coffman. Oh, you didn't meet with Dr. Foote. Did you 
ask for a meeting with Dr. Foote?
    Dr. Lynch. I did not.
    Mr. Coffman. Oh. And why didn't you ask for a meeting? I 
mean, here is somebody that clearly was at the center of the 
storm. You're there to understand what the process was, and yet 
you didn't request a meeting with Dr. Foote.
    Dr. Lynch. I, at the time, was concerned that it might 
interfere with the IG's investigation.
    Mr. Coffman. You know, I think that your concern was it 
might interfere with the truth. And I've got to tell you, how 
far this problem goes. Because the fingerprints of you all that 
are at this panel today are all over this problem. Because I 
can tell you, you are not being forthright in your testimony.
    And I think the model for the Veterans Administration--and 
let me tell you, there are a lot of good young men and women--
or, I mean, of all ages, that work for the Veterans 
Administration, the rank and file. And some of them are the 
whistleblowers. Because without them we would have no idea 
what's going on, because the leadership of the VA simply is not 
there.
    And the tragedy here is that the impression that you give, 
all three of you today, is that you are here to serve 
yourselves and not the men and women that have made 
extraordinary sacrifices defending this country.
    And I've got to tell you, nothing will change in the 
Veterans Administration until we have new leadership, and not 
just from the very top, General Shinseki, but all of you, I 
think, got to find something else to do. Because you're not 
here to do your job.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Walz, you're recognized for 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman.
    Well, as so many of my colleagues have alluded to during 
their testimony, this issue of trust is fundamental in any 
relationship. It's especially true in the trust of our Nation 
to their veterans, the veterans to the VA, the VA and Congress 
working in concert together. And I think that, being on this 
committee over the years and watching this, there has been a 
cautiousness that maybe, as some have alluded to, is the nature 
of any bureaucracy. Over the years, it appears that 
cautiousness has moved more towards a paranoia or, as Mr. 
Takano said, a bunker mentality.
    And the interchange with Mr. Denham and Dr. Lynch was very 
interesting. Mr. Denham was talking about the audit that was 
being done, and he asked the Assistant Deputy Under Secretary 
for Health and Clinical Operations if we were going to get that 
list, and there was a pause and a cautiousness.
    I don't understand--I know your hearts are in the right 
place, but the bureaucracy or whatever is holding you back. I 
can't imagine a scenario or a world, Dr. Lynch, where you would 
let someone in a bureaucracy not get Mr. Denham or myself that 
information, why you wouldn't have just gone out on a limb 
right at that table and said, ``I'll get it, and if they don't 
like it, too bad.''
    And that mentality gets us to where we're at today, because 
what we're all trying to do is solve this problem to provide 
timely, quality care for our veterans they've earned and 
deserve. And everyone gets that--the folks sitting behind you 
repping the VSOs, you, us here. But the problem is no competent 
leader is going to formulate a course of action with all 
pertinent data.
    And I was under the naive impression, apparently, that our 
constitutionally mandated oversight responsibility is, when we 
ask for a very narrow subpoena--I would hope it wouldn't have 
had to have been a subpoena. But I was under the impression 
this is what this would look like: You would go back and say, 
from this date to this date, which I can do on my computer, 
print out--and I thought there might be a whole bunch of 
interns taking stacks of emails, some of which might say, 
``Happy birthday, Mary; today we're having pie,'' or other 
things that were pertinent, and those would be here, and this 
committee would decide what was important.
    Mr. Walz. But I was mistaken because now I already know the 
answer. So you don't have to--I will give you the opportunity 
to do so out of courtesy, but the answer is going to be you 
should ask the general counsel, Mr. Walz.
    Is there a team of lawyers over there putting things in 
stack and saying, ``This is going to go. This is attorney-
client privilege''? And is there somebody over there putting 
something in executive privilege stacks? Do any of you know 
that? Is there an executive privilege stack over there of 
these? Anybody know the answer?
    Dr. Lynch. Congressman, I don't know the answer. I can let 
you know that I have met with this committee, with this 
committee's staff, with this chairman on a number of occasions 
to share what I know about VA and VHA health care. I, for one, 
value the relationship with Congress. I, for one, am looking 
for a collaborative relationship.
    Mr. Walz. Am I wrong to believe it is strained?
    Ms. Mooney, I am going to ask you that. We have known each 
other for quite some time and worked together.
    Are you under the impression that this relationship has 
been strained for a while between Congress and the VA with your 
congressional liaison?
    Ms. Mooney. Congressman, that is not our intent, that it be 
strained. Our intent is to be open, transparent, collaborative 
and work closely with you.
    Mr. Walz. Have you ever heard from anyone on this panel 
that they felt it might have been strained?
    Ms. Mooney. Yes, sir. I have heard that. Yes. And many of 
you talk to us about issues that you face, and we work to get 
you information as quickly as we can.
    On the subpoena we worked--and we understand the 
constraints--we worked for 2\1/2\ weeks, the Office of General 
Counsel, to provide the committee with a response----
    Mr. Walz. Was that an unrealistic scenario of me to--I 
truly did expect that you were just going to send a pile of 
stuff over here and these staffers, with the direction of 
Congress, were going to sort through and decide what needed to 
be done.
    Was that a naive assumption? And I say that not leading and 
not passively aggressively. Is that naive in terms of 
subpoenas?
    Ms. Mooney. Congressman, I know that this was run out of 
the Office of General Counsel; so, I would defer to them. I was 
not part of that process. And I don't think anyone on the panel 
can speak to that.
    Mr. Walz. And I think many of us on this committee have 
proven ourselves of what we want to do and the trust witnessed, 
whatever.
    But I am with Dr. Roe. I can't help but feel something has 
not been given to me. And that may be totally false, but the 
impression was there.
    I would have just loved to see you, Dr. Lynch, jump up and 
say, ``Over my dead body will you not get that report.'' Can 
you say----
    Dr. Lynch. Congressman, I have no doubt that this committee 
will get that report. I just do not have responsibility for it. 
But I have no doubt that the people----
    Mr. Walz. So now the person who is responsible is not here; 
so, we may have to bring them in and ask them to give us.
    Ms. Mooney. On the audit----
    Mr. Walz. What is the job of the congressional liaison? 
What is the job of--who do we talk to? Are you there for us to 
talk to to ask these questions or should we just skip over you 
and go directly to general counsel?
    Ms. Mooney. Yes, Congressman. In a subpoena, that is a 
legal matter. We work with members of this committee and their 
staff pretty much----
    Mr. Walz. We tried to do it without a subpoena.
    Ms. Mooney [continuing]. Every day
    Mr. Walz. We tried to do it without a subpoena.
    I yield back.
    Ms. Mooney [continuing]. Every day.
    The Chairman. Thank you very much, Mr. Walz.
    Dr. Wenstrup, you are recognized for 5 minutes.
    Mr. Wenstrup. I thank you very much, Mr. Chairman.
    You know, as a veteran and as a physician, I have serious 
concerns, obviously, like the rest of this committee. But let 
me ask a few questions.
    Why were so many patients canceled?
    Dr. Lynch. They were canceled in an effort to reschedule 
them more timely, first of all.
    Mr. Wenstrup. To have them seen sooner?
    Dr. Lynch. To have them seen sooner.
    Mr. Wenstrup. So they were canceled and to be seen sooner.
    Dr. Lynch. And rescheduled sooner.
    Mr. Wenstrup. Were they all new patients or were some of 
them follow-up visits?
    Dr. Lynch. Historically in Phoenix, as I understand it, the 
administration prior--the management prior to Ms. Helman had 
used a model where they had not employed the wait list. They 
had simply scheduled patients whenever there was an 
appointment. It could be 6 months out. It could be 7 months 
out.
    With the new team, there was a desire to identify 
additional appointment slots, which they did. They then went 
out, identified those patients who had been scheduled 3, 4, 5 
months in advance, canceled those appointments and brought them 
into a new appointment slot.
    Mr. Wenstrup. Do doctors weigh in on the immediacy of some 
rescheduling? So if someone is being rescheduled, do they 
actually say, ``No. That patient is very sick. I need to see 
them tomorrow. They need to get in here right away''?
    Because I know, in my private practice, if for any reason 
we are rescheduling someone, I will tell you it was very rare 
that we were moving them up. Okay? But if we needed to because 
they called, we would do that.
    But, also, we would discuss on a patient-by-patient basis, 
``This patient needs to be seen right away. They can't wait.''
    Does that ever happen or are the doctors out of this 
situation altogether?
    Dr. Lynch. I cannot tell you whether the doctors were 
involved in the rescheduling process that occurred in Phoenix.
    Mr. Wenstrup. So we don't know if doctors, in general, in 
the VA are able to weigh in on the risk associated with a 
patient waiting longer for a procedure?
    Because certainly we are talking about people waiting for 
colonoscopies. They weren't canceled to be moved up. They were 
delayed. They were delayed.
    So do doctors get to weigh in and say, ``This patient needs 
to be in here right now it is important.'' Does that happen? 
Because it happens in private practice.
    Dr. Lynch. I believe it does happen. I believe that 
physicians can review consults and identify, based on the----
    Mr. Wenstrup. Can or do they? I mean, can--I imagine they 
can. I would hope that they have access to their patients' 
records. But does this take place?
    Dr. Lynch. I believe they do.
    Mr. Wenstrup. Because, you know, in private practice, a 
hospital or clinic is not going to let a lot of patients sit on 
a waiting list.
    They are going to get them in to be seen because their very 
existence depends on that. And that's a different model than 
exists at the VA currently.
    So the other is what Dr. Roe alluded to before. Does the 
drive to get patients to fee-based care come from the problems 
that have arisen recently or is that something that's really 
been embraced with energy?
    And the other question I have is: Are those that are 
receiving bonuses penalized if they send more patients to fee-
basis care? Do you know that?
    Dr. Lynch. Congressman, I do not believe they are penalized 
if they send more patients to fee-basis care. I believe that we 
have been putting in place the tools that have allowed greater 
use of fee-basis care when we can't provide the service.
    Mr. Wenstrup. Because, you know, part of performance is 
really access and productivity as well as results of taking 
care of patients.
    So I just have one other thing to say. When it comes to the 
Office of General Counsel, if you are turning everything over 
and you have nothing you are concerned about that we should 
find out about, you should be very upset that they have not 
turned this information over to us.
    You should be screaming and yelling that they have not 
turned that over to us instead of reciting time and time again, 
``I defer to them.'' You should fire them. You should stand up 
for yourself and say, ``I have turned everything over and here 
it is so that you can evaluate it.''
    Do you have any comments on that on a personal note? Don't 
you feel that you are being let down? Because people are asking 
you here tonight, ``Where is this information?'' You say you 
have turned it over, and they are saying, ``Hold it.'' Doesn't 
that bother you? Because they are not helping your name 
tonight.
    Ms. Mooney. I have turned over the information--I haven't 
turned over the information. They have gone and pulled my email 
files.
    Mr. Wenstrup. Doesn't that bother you, that they haven't 
submitted it to us?
    Ms. Mooney. Sir, I haven't reviewed the email files. I----
    Mr. Wenstrup. So it doesn't bother you, apparently.
    Ms. Mooney. We are committed at VA to being collaborative 
and responsive.
    Mr. Wenstrup. Our veterans in a time in their life 
responded to the Nation's needs immediately. They dropped 
everything and did it immediately. I would hope you would do 
the same.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much, Doctor.
    Per committee rules, we will continue with membership and 
then we'll go to Ms. Jackson Lee.
    So, Mr. Cook, Colonel, United States Marine Corps retired, 
you are recognized for 5 minutes.
    Mr. Cook. Thank you, Mr. Chairman.
    You know, this whole issue is very, very disturbing. You 
know, it is ironic. This was Memorial Day. I think we all gave 
a lot of speeches. It kind of turned into Memorial Day/Veterans 
Day because this was the number one issue when you would talk 
to the military and the veterans. They want to know what's 
going on, what's happening.
    And somebody mentioned earlier Omar Bradley. I was a young 
second lieutenant in Vietnam that met Omar Bradley because we 
got shot up pretty bad and my unit--they wanted it. And I came 
back and I talked to him.
    And he said he wanted to talk about the M-16. And I told 
him--I said, ``It is a piece of crap,'' you know, ``It doesn't 
fire right,'' you know, all the things at that time. And that 
was 1967. You know, most of you people weren't even born then.
    But, you know, he was 80-something years old. He was taking 
notes. And then suddenly after that there were all kinds of 
investigations, changes to the system to change it so that no 
one else would die because of a weapons failure. And that 
weapon is still being used today in the U.S. military, the 
longest weapon we ever had.
    And I think, ``What if General Bradley were here now, the 
last five-star general we had?'' It is kind of ironic. Next 
week, Normandy Invasion, 6th of June. I just don't feel that 
there's a chain of command or a sense of urgency.
    You know, I am not going to go over all the things that 
have been covered and everything like that, but my feeling is, 
``Who is going to go down there and correct these things?''
    And, you know, I know you had a busy weekend. But if people 
are dying there, you have got to work through the weekend. It 
is a 24-hour day. It is a 7-day work--you know, there's got to 
be a sense of urgency.
    And I am coming away from this hearing that the lawyers run 
everything. There has to be certain decisions made right away 
to change some of these policies, whether certain people have 
to be fired, whether they don't get bonuses.
    There is a lot of great people out there, I am sure, that 
work for the VA, but most of them are military. And they are 
probably frustrated.
    And what I am getting up to is I think right now--you know, 
we are going to talk about this and this committee will make a 
report and everything like that.
    But I was going to ask you, you know, the chain of command, 
who is going to do this, this and this. I just come away from 
this hearing tonight and I get the feeling that no one in the 
VA right now is in a position to do anything.
    There is no trust and confidence to the people that I 
talked about. They want action and they want it now. And if 
certain people--like if I did something wrong and people died, 
I would be fired and probably court-martialed.
    And that is the nature of the business. We owe that to the 
veterans, to the military, and we owe that to all the people 
that are working so hard in the VA Administration.
    We have to straighten out this problem right now. We can 
have subpoenas and everything else, and I haven't heard that. 
I'd like to see the President go down to the VA hospitals and 
meet with the veterans. I'd like to meet--you know, if it were 
possible, to go down there right now and talk to them, you 
know, investigate and take statements of everybody. We have all 
done it before.
    And so I am just very, very frustrated that--you know, that 
I am in a position to make a difference and I can't do 
anything. You know, I can't get across to you or the whole--and 
it is a feeling of frustration. If I was smarter than most 
people here, I'd say, ``Okay. You have got to do this, this, 
this and this.''
    But right now I think you need the discipline to go down 
there. Certain people have got to be relieved. They have got to 
be fired. These policies have got to be changed almost 
overnight. And we can't accept excuses or the fact that the 
lawyers are handling it anymore.
    Sorry. I should have asked questions, but that has been 
something that has been bugging me. And I apologize. Thank you.
    I yield back my 1 second.
    The Chairman. Colonel, thank you for your service to this 
country. We are honored to have you as part of our committee.
    For the record, there are close to 700 attorneys at the 
Department of Veterans Affairs.
    Ms. Walorski, you are recognized for 5 minutes.
    Ms. Walorski. Thank you, Mr. Chairman.
    Mr. Lynch, I sit here and the--I don't think there is a 
word in the English language that can describe how frustrated I 
am, and I even think frustrated is an understatement.
    I have sat here for 18 months and listened to the same kind 
of answers we have heard tonight. And we have sat here for 2 
hours and 15 minutes. We have had 20-some people question the 
three of you. And I know now, 2 1/2 hours later, what you don't 
know.
    You actually traveled to Arizona and you didn't meet with 
anybody that had anything to do with this directly. You took 
your wife. It was Easter weekend. We understand that plan. You 
didn't meet with anybody that was directly involved, from all 
the testimony of these 20 people right here.
    If I was in your shoes, I would describe this as a five-
alarm fire and you are rushing to the scene and you are 
bringing mutual aide because the house is on fire and nobody's 
going to survive.
    And I sit here and listen to the three of you and I am 
thinking to myself the question I leave here tonight with and 
probably my colleagues: What do you know? What we know is that 
people died.
    So I guess the question I want to ask would be on behalf of 
the families that probably aren't in this room tonight, but we 
have heard from some of them. I heard from Barry Coates here 3 
weeks ago that has a death sentence and a death warrant for 
something that was no fault of his own because he couldn't get 
a simple colonoscopy.
    People died. We sit here and we are going to--we are asking 
all the same questions. But if you have an opportunity, I am 
going to give you an opportunity because you are all three 
sitting here. This is carried live.
    What do you want to say, Mr. Lynch, to the families of 
these people that lost veterans? What do you want to say on 
behalf of the VA? Here is your opportunity.
    Dr. Lynch. Congresswoman, on behalf of myself, first of 
all, I take personally any time that a veteran has been harmed 
because of something the VA has done wrong.
    Ms. Walorski. Dr. Lynch, does the buck stop with you on 
these deaths? Do you accept the bulk of the responsibility for 
what's happened? Are you responsible?
    Dr. Lynch. Congresswoman----
    Ms. Walorski. Yes or no. Are you responsible? Does the buck 
stop with you, Dr. Lynch?
    Dr. Lynch. I don't know whether it does, but I consider 
myself responsible, Congresswoman.
    Ms. Walorski. Ms. Mooney, does the buck stop with you? Do 
you feel responsible? Can you look in the eyes of these 
families and say, ``I accept this responsibility?''
    Ms. Mooney. Congresswoman, I am the daughter of an atomic 
veteran.
    Ms. Walorski. Yes or no. Are you responsible?
    Ms. Mooney. Yes. I am responsible for ensuring that our 
focus at this point--and I am sorry, Mr. Cook, that we didn't 
make this perfectly clear to you--our focus remains on caring 
for our veterans.
    Ms. Walorski. Ms. Mooney----
    Ms. Mooney. We want to make----
    Ms. Walorski. Let me interrupt.
    Ms. Mooney [continuing]. Absolutely sure----
    Ms. Walorski. Listen to me. Ms. Mooney, this is my time 
that I have, a limited time.
    I have sat here for 18 months as a freshman. I have gotten 
very few answers to any question I have ever posed to you or 
anybody else. I am still waiting on questions about a South 
Bend CBOC in South Bend, Indiana, to serve my veterans.
    Ms. Mooney. Congresswoman----
    Ms. Walorski. Mr. Huff, do you share this responsibility? 
Does the buck stop with you?
    Mr. Huff. Congresswoman, I am a----
    Ms. Walorski. Yes or no.
    Mr. Huff. I am a staff-level----
    Ms. Walorski. Does the buck stop with anybody----
    Mr. Huff [continuing]. Congressional relations officer who 
is a civil servant and, also, a veteran. I am not a supervisor. 
I am a staff-level Federal employee, and I do the best job I 
can.
    Ms. Walorski. Mr. Huff, does the responsibility lie with 
Secretary Shinseki? Do you still believe in his leadership 
ability to stand up to a five-alarm fire? Where in the world is 
the urgency?
    I can sense the urgency of this committee, Democrats and 
Republicans, because our Nation has totally lost its trust. It 
is our responsibility to sit here and continue to maintain 
oversight, and we can't find out where the buck stops.
    I have asked for Secretary Shinseki's resignation when the 
American Legion report came out. You have heard several 
different people asking the question: Does the buck stop with 
you?
    Do you accept this responsibility? Are you ready to accept 
this responsibility and look in the eyes of the American people 
and our veterans and say--what? What do you say tonight?
    I know what you don't know. What do you know that you can 
tell the American people that they can learn in 2\1/2\ hours of 
a committee meeting?
    Ms. Mooney. Congresswoman, our focus remains on caring for 
these veterans. We join you in this----
    Ms. Walorski. If that is the case, Ms. Mooney----
    Ms. Mooney. May I finish?
    Ms. Walorksi. No. Because I have 5 minutes.
    Ms. Mooney, if that has been the case, how could Dr. Lynch 
go to Arizona and not talk to anybody involved that had 
anything directly to do with this and there is 40 unexplained 
deaths, there is an IG report that has facts and you all seem 
to have turned the facts to a general counsel and we know less 
tonight?
    I have more questions tonight than I have had when I walked 
in here because we learned what you don't know.
    But my question is--and it is going to have to go 
unanswered--what do you know? Here is what we know.
    Ms. Mooney. We know that the facts of that report are 
utterly reprehensible. That is what we know. And we owe a debt 
to all our veterans who served, every one of them.
    Ms. Walorski. So are you responsible?
    Ms. Mooney. I will take the responsibility.
    Ms. Walorski. Do you take that responsibility?
    Ms. Mooney. Absolutely.
    Ms. Walorski. What are you going to do with that 
responsibility? Are you going to stay in your position? Are you 
going to apologize? Are you going to resign? Are you going to 
ask----
    Ms. Mooney. I am going to stay in my position and fight for 
veterans and fight for this Congress that I love, working 
together and really meaning it, working together for the good 
of our veterans. That is what the public expects, and that is 
what I am committed to.
    Ms. Walorski. And look what the public got. The public 
got--and 40 veterans died. This is what the public got.
    Ms. Mooney. And we understand that, and we view that report 
as totally--the facts of the report as totally reprehensible, 
inexcusable, unconscionable.
    The Chairman. Gentlelady's time has expired.
    Thank you, Ms. Mooney.
    Ms. Walorski. Thank you.
    The Chairman. Ms. Jackson Lee, you are recognized for 5 
minutes.
    Ms. Jackson Lee. Chairman and ranking member and members of 
this committee, thank you for the courtesy. But, also, thank 
you for the service that you are doing for the American people 
and for all of the veterans.
    There is probably not one of us that could not count our 
relatives--four uncles in World War II, thereafter for me, and 
others' extended family members, neighbors, faith members and 
others--there is not a place that we can go that we do not 
touch a veteran or a veteran does not touch us or soldier.
    And, as well, there is not a place where we can go where we 
are not grateful that they have served and willing to serve.
    This is overwhelming. And I thank you for allowing me to 
sit here. I am from Texas. And there are veteran facilities, 
including those in my area of 32,000 veterans in the 18th 
Congressional District alone.
    So I want to just read this into the record, which my 
colleagues who are on this committee have probably immersed 
themselves in, but I just want to have these words. This is 
about the scheduling practices reported in Phoenix.
    ``We are finding that inappropriate scheduling practices 
are a systemic problem nationwide.'' And then just to read this 
paragraph: ``Schedulers go into the scheduling program, find an 
open appointment, ask the veteran if that appointment would be 
acceptable''--and they call it Scheduling Scheme Number 1--
``back out of the scheduling program and into the open 
appointment date as the veteran's desired date of care. This 
makes the wait time of an established patient 0 days.''
    My question is: Where is the focus now with this report 
saying that this is systemic, this is nationwide? And I have 
heard you say that there is a nationwide audit.
    But the question is: While we are having a nationwide 
audit--and many of us have sent letters. And I guess I should 
ask the question first. I have sent a letter about the VA 
Hospital in the 18th Congressional District or in the 
neighborhood, which is in Houston, Texas.
    How soon will Members of Congress individually--there could 
be 435; there could be 535 letters--be able to get our 
responses to know the crisis in our own neighborhood? How soon 
could we get that response?
    Ms. Mooney. Do you want to----
    Dr. Lynch. I am sorry. Hopefully, as soon as it is 
available, Congresswoman.
    Ms. Mooney. Yeah. We are looking to brief the Congress as 
soon as it is available.
    Ms. Jackson Lee. But if we are sending our letters and we 
want to know about our immediate crisis in our own 
neighborhood, how soon can we get that response? I didn't 
realize there were 700 lawyers. But is it----
    Ms. Mooney. Congresswoman, it will be forthcoming very, 
very soon. I know the results of the audit are being compiled 
now, and we look forward to having them out to you.
    Ms. Jackson Lee. But the individual hospital reports, is 
that how it is coming?
    Ms. Mooney. Yes. Yes.
    Ms. Jackson Lee. Are you separating the requests from 
Members from your general audit? If a Member sends a letter, 
can they get an answer immediately?
    Ms. Mooney. I think we are looking to release the audit 
nationwide at one time. That is my understanding.
    Ms. Jackson Lee. That disturbs me only because, when we are 
in our districts, we are hearing individual outcries about 
time. And I want to agree with many Members who have said we 
have very fine providers in the VA system and we should pay 
tribute to them.
    I know, in particular, Michael E. DeBakey Hospital has a 
very fine, credible staff who cares, as do others. But I also 
know that, when I travel around--I have individuals I met in 
the airport--an individual said that they waited for 4 months 
for an elderly veteran for service. And when you go and get 
information directly from these hospitals, they have completely 
different numbers.
    And I guess my concern is what numbers are we to believe in 
and how--what a crisis we have with it being a nationwide 
system.
    Is there no way to take and have what we would call task 
forces or special ops in the veterans to target into places 
besides just having an audit to be able to go into hospitals 
and fix problems quickly, a SWAT team of sorts?
    Dr. Lynch. Congresswoman, we have right now at the same 
time that the audit is going on facilities identifying patients 
on the wait list. We are identifying those facilities that are 
challenged in terms of clinic efficiency.
    We are looking at ways of providing care to veterans in a 
timely fashion using non-VA care, and we'll be helping those 
facilities that need assistance in providing more efficient 
care processes. That is going on simultaneously with the audit.
    Ms. Jackson Lee. Let me just finish on this note, because I 
appreciate the passion. You all are public servants.
    Can we please get the kind of stated outcry from the 
leadership of the Veterans Affairs Department standing up, 
claiming responsibility, speaking not to us as Members of 
Congress, but speaking to these veterans, that, ``We are 
prepared and ready, one, to criminally prosecute those who may 
have been in a coverup''--I am not saying a witch hunt--and 
then, secondarily, standing up and saying, ``We are pained by 
what is happening and, veterans of the United States of 
America, we will not rest until we finish this task on your 
behalf and save your lives and provide you with care''? Can we 
hear that?
    Ms. Mooney. Congresswoman, we will not rest and we have not 
rested. We will not rest until we provide veterans with care.
    Dr. Lynch. Congresswoman, we have been working to identify 
and understand the problem across our entire system and to 
initiate solutions so that we can eliminate wait times and get 
veterans care when they need it as soon as possible.
    Ms. Jackson Lee. I thank the chairman for his courtesies 
and the ranking member for your courtesies.
    The Chairman. Thank you.
    Mr. Jolly, you are recognized for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman. I appreciate the 
understanding and courtesy of the chair.
    I had an amendment on the Floor this evening. I apologize. 
I have missed some of this. I will tell you my line of 
questioning. If there are areas that have already gone on the 
record, just feel free to point me to the record. I know it is 
getting late.
    I believe that the Department and this Congress ultimately 
can identify long-term institutional reforms. I think we can 
get through that. Those are long-term institutional reforms, 
though. My concern is what is happening immediately right now 
to clear the wait list.
    Dr. Lynch, you mentioned that, by Friday, everybody at 
Arizona will be contacted and, in your words, if needed, be 
referred out, fee'd out.
    My understanding--and the question is--please correct me if 
I am wrong, in the first place. And, secondly, I will give you 
my question.
    My understanding is that is the current policy, that if a 
veteran--if it is determined a veteran needs to go outside the 
system, that can actually occur now.
    Dr. Lynch. Congressman, if the veteran requests care, we 
will refer him when we speak with him.
    Mr. Jolly. Well, in practice. So--and I will tell you I 
have sat with my own hospital administrator in my district. And 
I understand, in practice, the hurdles that are required when 
that veteran requests to go outside of the system. It is 
actually not an easy task, in fact.
    Dr. Lynch. There will not be hurdles, Congressman. We are 
committed to getting veterans who are on the wait list care as 
they--you know, as appropriately and efficiently and as soon as 
they need it.
    Mr. Jolly. Right.
    So my question is: The current policy is already, if it is 
needed, non-VA care is available. If we are saying now the 
standard for this Friday deadline is, if it is needed, a 
veteran can go out, how is that any different, other than you 
are just suggesting the Department's going to try harder?
    And, secondly, how is that need evaluated? I understand a 
call center in Kansas. But is that need a medical evaluation?
    Dr. Lynch. That is going to be a conversation with the 
veteran. If there is need for a medical assessment, we will 
have a call center medical professional or a provider or a 
nurse professional available to discuss the patient's care and 
to determine the acuity of his need.
    Mr. Jolly. Is the standard of review going to be any more 
relaxed than it currently is?
    Dr. Lynch. Congressman, it is my understanding that we are 
going to get these veterans care in the community.
    Mr. Jolly. So I will tell you this is surprising to me. And 
I have talked about this every step of the way. I don't think 
this is a political issue.
    As I said at the beginning, I think that Congress and the 
administration can get to the bottom of long-term institutional 
reforms.
    My concern is the Department currently has the authority--I 
know you have probably heard it a dozen times tonight--the 
Secretary has the authority to refer people out. You are 
currently indicating you are going to do that by Friday.
    You are asking us to trust, however, that the same 
administration executing the same exact policy, the if-needed 
policy that was already in place, is somehow going to have a 
different result in the next 48 hours.
    And I will tell you this. If so, I will be the first one to 
go to the well of the House and compliment the administration 
and the President of the United States because I think this 
goes all the way to the desk of the President of the United 
States.
    Thus far, though, we have not seen an indication of new 
policies, new programs, emergency measures, new personnel. 
Really, your only indication tonight is that you are just going 
to try harder and put a call center in Kansas, but apply the 
same if-needed standard that already exists.
    Dr. Lynch. No. Congressman, let me go a little bit further, 
if I may.
    Mr. Jolly. Please do.
    Dr. Lynch. With respect to Phoenix, they have already 
approved the hiring of 12 more physicians. Three of those will 
be online shortly.
    We have approved and we have brought on board a number of 
new schedulers to increase the efficiency of the management of 
scheduling from the wait list.
    We will be moving locum providers to Phoenix as well as 
mobile medical care centers to try to improve capacity and 
capital resources to provide that care.
    We are taking steps to increase capacity and services in 
Phoenix. If we can provide care to veterans who have been 
identified by the IG in Phoenix in a timely fashion, we will. 
If we cannot do that, they will be sent to the community for 
care.
    Mr. Jolly. And you indicated other facilities as well would 
be undergoing a similar review?
    Dr. Lynch. Right now, VA is collecting--or has asked each 
of our facilities to identify patients who are currently on 
their wait list, who are waiting for care, to give us that list 
so we know the numbers. We are going to assess if we can 
provide that care locally. If we cannot, we will move that into 
the community.
    Mr. Jolly. I appreciate the response.
    And I would just express my concern for the record, and it 
is this: It is the very same medical doctors, physicians, 
medical staff that have already determined that these patients 
don't need to go outside of the system for non-VA care that we 
are now asking to reconsider whether or not they do.
    And without a dramatic shift in the administrative judgment 
that you can expect every one of your medical providers to 
exercise in this new 48-hour period, I still have great concern 
that it is not going to solve it.
    But I very much appreciate that measures are being taken 
and I hope they are successful.
    Mr. Chairman, I yield back. Thank you.
    The Chairman. Thank you very much, Mr. Jolly.
    Everybody obviously continues to have a heightened interest 
in talking with our witnesses. We have had numerous requests 
for a second round. The chair will give a second round of 
questions.
    But, with that, I ask unanimous consent that we have a 5-
minute recess. And we will reconvene in 5 minutes.
    [Recess.]
    The Chairman. Hearing will reconvene.
    Dr. Lynch, if you would, I am going to read you from the 
April 9 hearing here in this room.
    And, basically, I asked you: ``Does the VA have every legal 
authority it needs to pay for a veteran's care whose care is 
delayed to receive care outside of the VA system?''
    Your response: ``To my knowledge, sir, yes.''
    I followed up: ``So would it be correct to say that failure 
to deliver care in a timely fashion is simply a question of 
poor leadership at VA?''
    Your response: ``I think that would be a stretch, sir. I 
think that our system strives to treat patients within VHA 
because we think we do provide good care. We think we provide 
quality care.''
    Could you please expand on that, now that you have had 
several weeks to reflect.
    Dr. Lynch. Congressman, I still think we have a good 
system, and I think we have evidence that we deliver good care.
    We are obviously in very difficult times right now. We have 
identified that we have significant failures to provide timely 
care. We need to address that.
    I think we have a way forward. I think we have the tools to 
do that. I think it is going to require the collaborative 
relationship with Congress and with your committee.
    And I think, sir, I have demonstrated in the past I am 
willing to work with your committee to try to identify problems 
and to look to solutions.
    The Chairman. Thank you very much for your response.
    I would also ask: Do you think, though, that this has been 
a failure of leadership or what has it been?
    Dr. Lynch. I think that there is the potential that we have 
lost true north. I think we need to focus on our mission, 
treating veterans, providing health care. I think we need to 
focus our performance measures on giving us the tools that we 
need to provide timely care, Mr. Congressman.
    The Chairman. Thank you very much.
    And the letter we received from Mr. Gunn dated May 27 
basically says that these were the remainder of the documents 
identified in our search of the 27 custodians. In other words, 
the general counsel believes that they have complied with the 
subpoena.
    Ms. Mooney, would you deliver a message back to the general 
counsel that the committee says that the VA has not complied 
with the subpoena? Would you do that for us?
    Ms. Mooney. Yes, sir.
    The Chairman. Ms. Mooney, on September 13 of 2013, the 
committee requested the current status of all VA health care 
facilities that have an appointment wait time backlog. To date, 
we have received incomplete information on only two of hundreds 
of VA medical facilities.
    Now, despite this request being over 8 months late, when 
can we expect to receive a response?
    Ms. Mooney. Congressman, we will work to get you that 
request as expeditiously as possible.
    The Chairman. 8 more months?
    Ms. Mooney. No, sir. We look to having the results of the 
audit and getting the response as quickly as possible.
    The Chairman. But this--okay.
    Ms. Mooney. I don't know the circumstances of this 
particular request, but we are--we will work to get that.
    The Chairman. Will the----
    Ms. Mooney. And we'll take that back and make it the 
committee's top priority, if that is what you indicate.
    The Chairman. Thank you very much.
    The committee sends a letter every week to the Secretary 
with every single outstanding request. On January 6, 2014, VA 
was sent a request for information regarding gastrointestinal 
consult delays for each VA health care facility. To date, we 
have received no response.
    When will we receive a response?
    Ms. Mooney. On consult delays, I will have to--I will get 
that information for you as to when we can provide it.
    The Chairman. On January 14, 2014, a request was sent to VA 
asking for a copy of a report that contained information on 
consult delays all across VA medical facilities and for 
complete consult delay information from 2005 to present.
    Considering that this request is over 4 months late, when 
will we receive a response from you?
    Ms. Mooney. Congressman, I will--or, Mr. Chairman, I will 
work to get you the information and look into that request 
immediately as one of the priorities of the committee.
    The Chairman. Ms. Mooney, to date, have you provided any 
information to the committee staff to explain when the 
alternate Phoenix wait list was destroyed?
    On April 28 and 29, the staff asked Mr. Huff. No response. 
On April 30, the staff called and asked you. No response. On 
May 1, I wrote a letter to the Secretary. No response. Hence, 
the committee's subpoena on May 8.
    It seems pretty simple. There was a list. The list was 
destroyed. We asked when was it destroyed, and you still have 
not provided an answer despite nearly a month of time elapsing.
    Mr. Michaud, you are recognized.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Mr. Lynch, getting back to waiting lists and your response 
to Mr. Jolly's questions about fee-for-service, is that 
primarily just for the Phoenix, Arizona, facility or is it 
throughout the VA, in general?
    Dr. Lynch. No, Congressman. As we evaluate the wait list 
from all of our facilities, we are going to be determining how 
we can effectively use fee-basis services to reduce and 
eliminate those wait lists.
    Mr. Michaud. Throughout the system?
    Dr. Lynch. Throughout the system.
    Mr. Michaud. I am very glad to hear that.
    My big concern is, if you look at some of the other 
problems the VA is going to be facing with long-term care needs 
for our World War II veterans and Vietnam veterans as well as 
when the draw-dawn occurs over in Afghanistan, there is going 
to be a huge need for services from the VA and the VA cannot 
provide all those services and you do have to look at fee-based 
services. The fact that 40 percent of our veterans live in 
rural areas that--I think we definitely have to look at that 
problem there.
    My question is to Ms. Mooney. I know you talked about, you 
know, you can't answer some questions because it is in general 
counsel. But as has been stated earlier, we only went the 
subpoena route when we could not get the information in the 
first place. That was very narrow and very specific to Phoenix. 
And I know the VA--every time we ask for information you talk 
about the long list of questions that we are asking, and we try 
to make your job a lot easier.
    When Sloan Gibson was before this committee, the Deputy 
Secretary, we talked to him about the fact, to help speed up 
the process, we asked that the VA allow committee staff or 
Members of Congress, if they want to talk to subject matter 
experts, that we can do that so, that way, you will not have to 
respond to letter from us. But, yet, that seems to still be a 
problem.
    And we are trying to work with you, but there has been a 
disconnect between what this committee needs to do our job for 
oversight and what the VA is willing to give us.
    And the fact that we can't speed up the process by allowing 
subject matter experts to work directly with the committee 
staff when asked rather than having to go through OCLA is part 
of the problem when you look at the frustration that we see 
here, you know, as a committee.
    And, hopefully, we'll be able to address those particular 
concerns and problems that we have within the system.
    And I will ask you once again: Would you allow the subject 
matter experts to talk to committee staff without having to go 
get approval through OCLA?
    Ms. Mooney. Congressman, I think, as you know, Dr. Lynch 
came to the committee to brief the committee and the committee 
staff and to engage in conversation with them. I understand. I 
understand the frustration on the point of wanting us to 
reaffirm.
    Again, Dr. Lynch did not provide----
    Mr. Michaud. Well, Ms. Mooney, yes. I mean, that is the VA 
deciding who is to come to us. I can give you examples where 
legislators ask the subject matter expert whether or not they 
can come brief us on certain issues. They said they were 
willing to, but they have to go through OCLA to get OCLA's 
permission.
    Ms. Mooney. No. I would respectfully suggest it is not 
permission. We look to coordinate and take----
    Mr. Michaud. We have an email and we'll gladly share it 
with you, Ms. Mooney, from a subject matter expert saying that 
is the policy of the VA. Now, we can address that.
    I have brought it to Sloan Gibson's attention. I have 
talked to the Secretary a number of times about the fact that 
the relationship between the Department and this committee is 
getting extremely strained because we are not able to get the 
information that we need to.
    We tried at the beginning of my term as ranking member to 
smooth out some of the requests as far as going directly to the 
subject matter expert. That has not worked. And so, hopefully, 
we'll be able to get that working the way it should be working 
to build up trust and open line of communication.
    Mr. Huff, I want to thank you, first of all, for your 
service. And I know that you are the congressional relation 
officer. You just happened to be in the meeting with Dr. Lynch, 
and that is why you are appearing here today.
    I want to thank you for your service. I know that you are 
not in the position where you actually have to make these 
decisions. That is above your pay grade.
    And I do want to thank you for your willingness to come 
this evening to talk to us here on this committee. And I do 
understand that these are above your pay grade.
    So thank you for coming forward and answering the questions 
that were put to you this evening, and thank you for your 
service.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    In the Interim Inspector General's report, I want to ask 
you about a couple of things.
    First of all, on page 3 and 4 of the executive summary, 
there is this statement: ``We are not reporting the results of 
our clinical reviews in this interim report on whether any 
delay in scheduling a primary care appointment resulted in a 
delay in diagnosis or treatment, particularly for those 
veterans who died while on a waiting list. The assessments 
needed to draw any conclusions require analysis of VA and non-
VA medical records, death certificates and autopsy results. We 
have made requests to appropriate State agencies and have 
issued subpoenas to obtain non-VA medical records.''
    How many subpoenas do you know that the--has the IG's 
office issued to non-VA agencies concerning deaths of people on 
a waiting list?
    Dr. Lynch. I don't know, Congressman.
    Mr. Lamborn. Okay. Do you happen to know--have they 
contacted the VA about VA medical records, death certificates 
or autopsies?
    Dr. Lynch. I am sure they have.
    Mr. Lamborn. Do you know the specifics?
    Dr. Lynch. I don't know the specifics.
    Mr. Lamborn. But they are carrying out that part of the 
investigation?
    Dr. Lynch. Congressman, to the best of my knowledge, the IG 
is taking this very seriously and making an honest attempt to 
understand the deaths and to determine whether or not they were 
related to the delay or not. I think that is a critical 
question----
    Mr. Lamborn. Absolutely.
    Dr. Lynch.--you need to understand.
    And I think it is such a critical question that they are 
doing this very carefully. They want to be right the first 
time.
    Mr. Lamborn. Absolutely. We all want that.
    When will they be done?
    Dr. Lynch. I don't know.
    Mr. Lamborn. Okay. Let me change subjects--because my time 
is limited--and ask about Recommendation Number 3 in the 
report. Tell me if you agree with it.
    It says, ``We recommend the VA Secretary initiate a 
nationwide review of veterans on wait lists to ensure that 
veterans are seen in an appropriate time, given their clinical 
condition.''
    Dr. Lynch. I agree with it. And it has been implemented.
    Mr. Lamborn. Okay. My question, then, is this. Let's say 
Fort Collins for the sake of example. You contact them and say, 
``How many people are on your waiting list?'' And they have a 
secret waiting list. How can you rely on their answer?
    Dr. Lynch. Congressman, I think, number one, we have the 
assistance of the IG to help us to assure that we are 
establishing integrity in our system.
    Secondly, I think that we are looking very carefully. We 
are encouraging employees to anonymously report and to identify 
where they think there have been secret wait lists or where 
they have been told to do things that are not part of our 
policy.
    Mr. Lamborn. The procedure you said you would use for the 
1,700 in Phoenix to get them immediate treatment, especially if 
they have gone on too long without getting it, using fee basis, 
as myself and others have asked you about, will that be used 
elsewhere in the country or is that exclusive to Phoenix?
    Dr. Lynch. No, sir. It is not exclusive to Phoenix. If the 
facilities cannot provide timely care to patients on the wait 
list, we will be using fee basis to provide that care.
    Mr. Lamborn. Okay. I am really glad to hear that because I 
have almost 100,000 veterans in my district, in California 
Springs, and we are getting a lot of concerned phone calls, as 
you can imagine.
    So I would urge you, especially because the projection is 
$450 million--almost half a billion is going to be turned back 
from the VA--or rolled over until next year--let's use that 
money. Let's consider this a disaster relief for veterans.
    Dr. Lynch. Congressman, we have to reestablish credibility 
in VA. This is critical. We take this very seriously. No 
veteran should be harmed because of delay in care.
    We need to resolve this problem. We have a good health care 
system. We have to assure that veterans have access to that 
good health care system.
    Mr. Lamborn. And when will this nationwide review be done?
    Dr. Lynch. I believe it is going to be completed in the 
next week or so. There was a new round. The Secretary requested 
that all facilities be evaluated, not just the larger 
facilities. So I don't know the exact date of the conclusion.
    Mr. Lamborn. Well, I agree with the intention behind it, 
but I still have the concern.
    Can we rely on their self-reporting to you when some of 
these people are hiding information? Will they be up-front with 
you?
    Dr. Lynch. I think, Congressman, that it is not only our 
audit. I think we have the IG assisting us. I think we have the 
resources to identify where there are vulnerabilities in our 
system. We have to do that. We have to restore the credibility.
    Mr. Lamborn. Absolutely. Thank you.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Brown, you are recognized for 5 minutes.
    Ms. Brown. Thank you.
    First of all, let me thank all three of you for your 
service. Thank you very much. Because I think it is very 
important that we have veterans working in the Veterans 
Administration that is committed to veterans.
    And, by the way, Ms. Mooney, how many veterans work in the 
VA system?
    Ms. Mooney. About a third of our employees are veterans. 
And I am very proud that half of my workforce in OCLA are 
veterans. And many more are family members of veterans as well. 
We all care very deeply about our mission.
    Ms. Brown. Thank you.
    Now, the fee-for-service--there has been a lot of 
discussions about the fee-for-service, and we have had that 
available.
    Part of the reason why a lot of veterans don't want the 
fee-for-service is they want their care in the VA and they have 
come to the committee over and over and over and told us that 
they want the services in the VA.
    And, in fact, I know it--you know, being on this committee 
for 22 years, I know there is not a lot of institutional 
memory, but I do have a little bit here.
    And on January 16, 2003, the Bush Administration just 
stopped taking the priority 8 requests for services. On June 
15, 2009, Secretary Shinseki opened it back up and let all 
those veterans come in. So that was millions of--millions of 
veterans that didn't have to prove their individual case, which 
is what was needed, but it also wasn't great to the system.
    Now, how can we--and I am trying to take it a step 
further--how can we work with the community? Because I don't 
think the VA needs to hire 100 new people or thousands of new 
people.
    How can we work with the community groups that is already 
doing it? One of the areas, mental health, a lot of them need--
it is not just that they are homeless. They need comprehensive 
care.
    How can we work closely with communities to provide the 
veterans what they need? It is not just a list. It is making 
sure that they get the services they need off the list.
    Dr. Lynch. Congresswoman, the VA has been holding summits 
for the past 2 years now, to the best of my knowledge, where we 
involve community providers in understanding what our mental 
health needs are and engaging them in participating in the 
mental health care of veterans.
    Ms. Brown. Do you want to speak to that, Ms. Mooney?
    Ms. Mooney. Additionally, I would just echo many of you saw 
the Senate hearing last week where we had our veterans service 
organizations make statements that the simple truth is VA is 
the best health care provider for veterans.
    In fact, VA specialized services are incomparable resources 
that can't be duplicated in the private sector. That is from 
Carl Blake from the Paralyzed Veterans of America.
    In AMVETS, they said the same thing: Let's not throw out 
one of the premier health care systems in the world in our 
haste to fix these problems or achieve political goals.
    Commander Dellinger of the American Legion noted that 
private care can help get money more quickly, but, ``We have to 
put a caveat on that.'' It can't happen exceedingly because 
there goes the entire budget. And it's fee-based, which is 
going to be higher in the private sector versus the ability in 
VA.
    I know for myself, Congresswoman, for loved ones that I 
have had who have sought care in the community, while great and 
well intended, did not meet the same transformative care that 
they received in VA that was life changing for them and for our 
entire family.
    Ms. Brown. And I agree with you. And there has been lots of 
accusations based on whether or not--how many people have died 
in the system. Those are allegations that is being 
investigated.
    And, you know, I just really have a problem when I listen 
to the television or--you know, the ``Scandal''--the 
``Scandal.'' Listen, this has been a scandal for VA for years, 
and finally we are getting the finances and the services that 
we need.
    We have forwarded budget. Someone says, ``Why do you turn 
this money back?'' No. We are not doing it like the other 
agency used to do it. You have got to spend it by the end of 
the year or else and you just buy gidgets and gadgets.
    What we have now is we have that money for next year so we 
can continue to work with veterans to make sure that they get 
the services that they need.
    Would you speak to that. I mean, because that was something 
I think that was very important.
    The Chairman. Gentlelady's time is 2 seconds from expiring.
    Gentlelady's time is expired.
    Mr. Bilirakis, you're recognized 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. With regard to Dr. Lynch, define timely care, 
because you said that the vets who are on the waiting list that 
had to wait a long period of time, that they'll be able to go 
outside the system to receive the care. Define, what's your 
definition of timely?
    Dr. Lynch. Right now, if somebody goes on the waiting list 
if we cannot provide care within 90 days of the request. 
Ideally, we would like to provide care more timely. I think 
even outside of----
    Mr. Bilirakis. Ninety days is a long time.
    Dr. Lynch. Ninety days is a long time, Congressman.
    Mr. Bilirakis. Okay. With regard to the regards, are you 
aware that in the fiscal year 2013, the Department was found to 
be at high risk regarding record management obligations by the 
National Archives Records Administration. Are you aware of 
that?
    Dr. Lynch. I was not aware, Congressman.
    Mr. Bilirakis. If you're not aware, does anyone else on the 
panel? Ms. Mooney, are you aware of that?
    Ms. Mooney. I'm sorry, the question was again, sir?
    Mr. Bilirakis. The Department was found to be high risk 
regarding records management obligations. Are you aware of 
that, the VA in 2013?
    Ms. Mooney. No, sir.
    Mr. Bilirakis. Can you please provide me, Dr. Lynch and Ms. 
Mooney, please provide the committee with actions that the VA 
has taken since this finding to correct the records management 
practices? You can provide that information to me and maybe to 
the chairman of the committee, the entire panel if they wish.
    Dr. Lynch. We'll do our best, Congressman.
    Mr. Bilirakis. Please. Please do. Thank you very much. 
Okay.
    With regard to the list again, how and when did you become 
aware of the list?
    Dr. Lynch. I initially became aware of the list when I was 
in Phoenix on Holy Thursday. Actually, I take that back. It was 
the Monday following Easter. We were talking, I was talking 
with Dr. Mike Davies, and he indicated that his conversations 
with the staff in scheduling had indicated that there was an 
intermediate work product that was being used to provide the 
names of veterans.
    Mr. Bilirakis. Did he create the list?
    Dr. Lynch. Did who create the list?
    Mr. Bilirakis. The doctor you're speaking of.
    Dr. Lynch. No. The list was created by VistA, which is the 
VA's health information system. When an appointment is 
cancelled, as part of that cancellation process, the list of 
the patients who are cancelled is provided and is printed out 
so that it can be used to assure that those patients are 
rescheduled.
    Mr. Bilirakis. Okay. After the list was created, who made 
comments or notes on its contents, and what did those notes or 
comments state? Can you briefly describe it.
    Dr. Lynch. I don't know whether there were any notes or 
comments on the list.
    Mr. Bilirakis. How many people was the list circulated to? 
Do you have any idea?
    Dr. Lynch. I don't know, Congressman.
    Mr. Bilirakis. Well, can you get that information to us?
    Dr. Lynch. I can try. I can ask in Phoenix if we can 
identify that. I can't promise you we can get that information.
    Mr. Bilirakis. Okay. Well, please try to get it to us. I 
think it's very important, very relevant.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    I know you get whipsawed back and forth by different 
members who feel this urgency to get answers.
    You state, Ms. Mooney, that you think the audit might be 
complete within weeks, a week or two?
    Ms. Mooney. Yes.
    Mr. Takano. My questions to you may seem a little perverse, 
but how can you get the audit done so quickly, given the scale 
of the Department? Is that a realistic turnaround time for you?
    Dr. Lynch. Congressman, maybe I'll try to answer that based 
on what I know about the audits. VA has mobilized resources 
from across our system. We have asked each of the networks and 
facilities to provide volunteers to do these audits, to go out 
and evaluate hospitals so that we can get this audit completed 
in a timely fashion.
    Mr. Takano. Again, I go back to this issue of how good this 
information is that you're getting from people. I mean, the 
public officials have called for criminal investigations or 
turn this over to the Justice Department. Are people going to 
lawyer up, clam up? Is that going to slow down the ability to 
get information out of people.
    Dr. Lynch. I am sure that there are people who are 
concerned. I think that the IG is also our partner in this. 
They have also been evaluating facilities, particularly those 
with concerns. They have authorities that we don't have to 
obtain the information we need to assure that we reestablish 
the integrity of our system.
    Mr. Takano. It seemed as if you did concede that the things 
were turned into goals. I forget what you said, that you put 
goals ahead of everything else. I forget the term.
    Dr. Lynch. I think what I said is that we need to focus on 
our primary goal and responsibility, and that is assuring 
timely care to veterans, that is giving veterans access to our 
system and providing quality care.
    Mr. Takano. I thought Mr. Flores' line of questioning was 
really enlightening when he brought up the case of Enron, that 
maybe the incentives that were built into the management of the 
VA in the health system induced some of the results that we 
have seen today.
    Dr. Lynch. Congressman, I think that's possible. I think 
that's what happens when measures become goals.
    Mr. Takano. Well, in the situation we're in now, I'm 
concerned less about the rewards that--or the incentives that 
might have led us to this point. I'm concerned about the amount 
of time it's going to take to get a good, accurate audit and 
that maybe the punitive atmosphere may also impede that. That's 
where I'm really going with my line of questioning, is the 
sense of the punitive instinct going to cause us to see an 
audit that may be less than whole?
    Dr. Lynch. I can tell you, Congressman, that we have 
discovered system failures as part of our audit. I don't think 
that our audit is going to be a whitewash. I think we are 
identifying some of the same concerns that the IG has 
identified.
    Mr. Takano. Real quickly, is there a shortage of providers? 
Is that within the system in these particular areas where we 
have seen failure, is that a large part of what the problem is?
    Dr. Lynch. There are some facilities where there is a 
shortage of providers. To Congressman Wenstrup's point, I think 
there are things we can do to increase the efficiency of our 
providers. I suspect he would agree with me that in the private 
sector, we can provide support services that make physicians 
more efficient so that they can see more patients. There could 
be simpler solutions than hiring physicians. There could be 
solutions, such as hiring support so that physicians can see 
more patients, providing them additional rooms so that they can 
work more efficiently. I think it's not just the provider. It's 
the support we give the provider so that they can work 
efficiently.
    Mr. Takano. This fee for service, I mean, I applaud your 
effort to simultaneously try to get these 1,700 people seen by 
providers, but I'm a little worried about the systemic 
consequences of that. Are fee for service, are they sufficient 
for physicians in the private sector to take on these patients?
    Dr. Lynch. There are some communities where we do not have 
sufficient fee providers, and we're going to have to look at 
how we are going to address capacity issues at these VA 
facilities so that we can treat those patients in a timely 
fashion. It's a complicated process. We have to assess how 
efficiently we're working, how efficiently we're allowing our 
physicians to work, and what's available in the community.
    Mr. Takano. Thank you.
    I'm sorry for going over, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Roe, you're recognized for 5 minutes.
    Mr. Roe. I do want to say that the Mountain Home facility 
in Johnson City, Tennessee, there have been a lot of letters to 
the editor recently have all been positive. There are a lot of 
positive things that go on with the VA. I want to get that out 
there.
    Secondly, I remember asking the Secretary every time I've 
been here now through six budgets, do you have the resources 
you need to carry out your mission to take care of American 
veterans, and the answer has been yes every time. Something's 
wrong if the answer is yes. And the question I have very 
quickly, in Phoenix, what happened? And I can tell you flatly 
how to make the doctors more efficient. Right now, you've got 
physicians in the VA system that are clerks. They have to call 
and schedule all appointments. They have to do all the data 
entry. They have to do all those things. Let me tell you, that 
slows you down enormously when you have to do that. You could 
hire somebody just to put the information in electronic health 
record and about double the capacity or a 50 percent increase 
in any physician because it slowed me down about that much when 
I got the electronic health record. I can tell you in 2 seconds 
how to make it happen, how to make the doctors. But in Phoenix 
specifically, when you had people calling in, look, I 
understood when more people called into my office that we 
couldn't see, we needed more providers because we were as 
efficient as we could possibly be.
    And right now, I mean, Ms. Mooney, you made the comment in 
my home town in orthopedic surgery, the doctors operating on 
people in the VA were in private practice and got toward the 
end of their careers and got tired of fooling with all the 
stuff that's going on and went to the VA. They're very fine 
physicians, but they were very fine physicians the day before.
    And I think I heard Dr. Lynch just say that in 90 days, if 
you didn't get taken care of, we'd get you out in the private 
sector. Are you saying today that if I have a veteran with a 
bad knee that needs to be replaced and it's not fixed in 90 
days at the VA, that we can get that veteran out in the private 
sector and get his or her knee or hip or back fixed or whatever 
they need done, because it ain't happening right now?
    Dr. Lynch. Congressman, I think it depends on eligibility, 
but I think we have the option to try to do things more 
efficiently.
    Mr. Roe. I think you said in 90 days if the veteran didn't 
have an appointment taken care of, I think that's what I heard 
you say, then I'm going to go back home and when a veteran 
comes up to me and says, I've got assurances from the VA that 
you can get your knee or your hip fixed in 90 days, because we 
can do that in the private sector right now today.
    Dr. Lynch. Congressman, within the limits of eligibility, 
we hope to get that done.
    Mr. Roe. Well, no, that's not what you said a minute ago. 
You said we're going to do that.
    Dr. Lynch. Congressman, we are going to get that done 
within the limits of eligibility.
    Mr. Roe. What happens this summer, in August, when I go 
home and I enter the August recess, and the veterans are not 
getting taken care of; they're having to wait 6 months or a 
year or 18 months, which they are now, to get a hip or knee 
replaced?
    Dr. Lynch. Then I hope you'll let me know so I can look 
into it, Congressman, if that's happening.
    Mr. Roe. That's not what you said. You said we'll take care 
of it in 90 days.
    Dr. Lynch. I'm saying if that hasn't happened, I want to 
know about it so I can identify the problem and fix it because 
the delay should not have occurred.
    Mr. Roe. The problem in Phoenix is, I'm trying to get my 
arms around it. What was the problem there? I realize all the 
lists and destroyed lists. What was the reason that these 
veterans couldn't get in? Nobody's even said that tonight after 
2 hours.
    Dr. Lynch. Congressman, I think part of the reason was 
capacity and their ability to see patients in their system. It 
appears that they needed more physicians, care working with 
them to identify more physicians. There was probably an 
inefficient process of handling patient requests. I don't think 
they had enough personnel in their scheduling area to get 
patients on the wait list and to get them scheduled.
    Mr. Roe. If, at the VA there, let's say any system in the 
country, if those, and it's been sort of danced around a little 
bit here tonight, but if a VA system is turfing out or sending 
out into the private sector, a fair amount of people, how does 
that effect the bonus of the people running the VISN and the 
local medical center? In other words, that is one--we know that 
scheduling time, we have learned that's one thing, but is that 
something else that affects their bonus? If I send this veteran 
out to get care promptly, then it will hurt me financially. Is 
that true?
    Dr. Lynch. I don't know, Congressman.
    Mr. Roe. Well, what metrics are used to determine what 
bonus is provided for a VA director.
    Dr. Lynch. It varies by network. The network director makes 
the decision.
    Mr. Roe. Each VISN decides how the bonuses are handed out?
    Dr. Lynch. They're going to establish the metrics they 
think are important for their facilities.
    Mr. Roe. Could you get me the criteria for that for how 
someone is paid a performance bonus in the VA system.
    Dr. Lynch. Congressman, we'll try to get that for you.
    Mr. Roe. Will you get it for me?
    Ms. Mooney. Yes, sir.
    Mr. Roe. Thank you.
    The Chairman. Ms. Titus, you're recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Dr. Lynch, you said you went to Phoenix for 6 days and 
mostly what you did there was try to stay out of the way of the 
IG. You didn't talk to any doctors, didn't talk to any 
veterans, didn't talk to any whistleblowers, but you did learn 
about the procedure. And so we have heard a lot about 
procedure. We have heard a lot about goals. We have heard a lot 
about metrics. I'm not sure what all that means, but most of 
the focus has been on the past. I'm more curious about the 
future. If you put in reforms on all these problems--you hire 
more personnel, you bring more doctors, you improve 
accessibility, you get rid of all these scheduling schemes--how 
are you going to know if they're working? Are you going to come 
with a new set of metrics? Are you going to do a whole bunch 
more audits? Are you going to do anecdotal evidence from 
interviews? How do we know we're really making progress?
    Dr. Lynch. I think, first of all, Congresswoman, the key is 
to assure that we have the right goals. If we hold people 
responsible for the right goals--how many patients are you 
getting into your system, how satisfied are they with your 
system--then the performance measures become tools. If you try 
to game those measures, you lose. If you don't know who's on 
your electronic wait list and get those patients in and 
increase the number of patients you're treating, then you lose. 
We have to set up a system where we know what our priorities 
and goals are and our metrics are focused on giving us the 
information that assures that we can achieve those goals, 
provide increasing care to veterans and quality care to 
veterans with increasing satisfaction.
    Ms. Titus. Hasn't that been the goal of the VA all along? 
How is that a different new goal?
    Dr. Lynch. I think where the difference occurred is that in 
some cases, our performance measures became the goal. And we 
need to get away from that. We need to use our performance 
metrics as tools, and we need to focus on our core mission, our 
core values, which are treating veterans and providing quality 
services so that we get good patient satisfaction.
    Ms. Titus. Are you going to have some milestones along the 
way so we'll know that progress is being made? We don't have to 
wait like 2 years from now until another crisis comes and then 
we go, oh, sorry those metrics didn't work out so well. We got 
to get some new metrics now.
    Dr. Lynch. Congresswoman, I think we have the tools right 
now that allow us to monitor the system, to know about access, 
to know about consult delays. We need to assure that we have 
integrity in our data systems, that we're getting accurate 
information so that we can use those tools to provide 
assistance to facilities when we see that there are delays, 
when there is increasing demand.
    Ms. Titus. If you have those tools right now, why aren't 
you using them?
    Dr. Lynch. The tools have been implemented over the last 
year. We have been putting those in place. Right now, in 
certain cases, the information we're getting has been 
compromised by the data that's being entered into our system. 
We need to assure that we do clean up the system; we understand 
where people are not giving us accurate information; and that 
we instill in our system a sense of integrity. It begins at the 
Medical Center. It begins with the VISNs. We have to respect 
the fact that data is important because if we don't have good 
data, we can't treat veterans appropriately and timely.
    Ms. Titus. Are you going to have these systems in place at 
all the facilities, and if you discover problems at, let's say, 
the Las Vegas Hospital that are similar to Phoenix, are you 
going to be able to bring in all this new personnel, these new 
schedulers, these new doctors, do all these major changes at 
every facility where there's a problem?
    Dr. Lynch. Hopefully, Congresswoman, if we can begin to 
identify the problems before they become major issues, we can 
work with the facilities to identify where they may need 
additional resources or where they may have to institute 
efficiencies, either in scheduling or in their clinics, to 
provide greater capacity. I think we can use these tools in one 
of two ways. We can use them to make decisions whether or not 
we should be buying the care in the community or whether we 
should be hiring providers and making that care internally. We 
can use these measures to ask critical questions. Are your 
clinics effectively managed? Are you using your personnel 
effectively? There are a number of ways that once we have this 
accurate information, we can get beyond the wait list that we 
have now, we can get to a steady state situation where we 
identify delays before they become significant and institute 
actions to assure that they don't become major issues and there 
aren't delays that result in patient harm.
    Ms. Titus. Thank you, Mr. Chairman.
    The Chairman. Mr. Flores, you're recognized for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    I have sort of a philosophical issue I've been dealing 
with, and it goes back to early 2007--excuse me, 2011, shortly 
after I was sworn in. My very first dealing with the VA was 
when I was trying to help a World War II veteran that was 
trying to get hearing aids, and he had been delayed in getting 
these hearing aids for somewhere in the neighborhood of 2 
years. And finally the way that I was able to help this 
gentleman is I threatened to take my personal funds and buy 
this gentleman hearing aids. But then they put out a press 
release that I did it, and then the VA said, okay, well, we 
don't want to be embarrassed, so they took care of it. Now, 
there are a lot of great people in the VA.
    And, Dr. Lynch, I think you have been on point. I think 
maybe the VA has lost its north star a little bit or some 
people within it, not all of it. I think it's got, you know, 
thousands of employees that do a great job, but I think we have 
got some that have let a bad culture corrupt them. And so what 
we have now is a system where poor performance is not punished, 
where excellent performance is sometimes not properly rewarded. 
And if you are one of those that cooks the books, well, you can 
wind up with a bonus out of that. The outcome was lots of--
thousands of veterans were waiting for health care, and some of 
them died while they were waiting. This brings into focus, how 
good is a Federal Government bureaucracy--this is the same 
Federal Government that's spent hundreds of millions of dollars 
on a health care Web site that didn't work for months. I think 
we as Americans need to say, what do we want to do here? If our 
goal is to take care of veterans, then I think we as Congress 
need to try to think about other models to do this versus using 
a huge bureaucracy. Again, if our goal is to take care of 
veterans, we need to think outside the box on how we do this.
    This particular issue ought to be a wake-up call. I mean, 
here we have got an agency that's really committed to taking 
care of veterans, but what's going to happen when we have a 
Federal health care system under Obamacare that's going to have 
to take care of millions more Americans but still use a Federal 
bureaucratic structure? I think this is a wake-up call that all 
Americans need to think about.
    Dr. Lynch, I do have a question for you. There were three 
VA employees that were placed on leave in Phoenix as a result 
of the IG report that came out today. Do you have any idea of 
the background behind those folks that were put on leave, I 
mean about why, and what happens next with these folks?
    Dr. Lynch. I believe in his testimony, and I'm trying to 
recall, I believe it was before the Senate Veterans Affairs 
Committee, the inspector general indicated that the employees 
were placed on leave so that they would not compromise the 
investigation by their presence.
    Mr. Flores. Mr. Chairman, I have no further questions.
    I yield back.
    The Chairman. Thank you.
    Ms. Kirkpatrick, you're recognized for five minutes.
    Mrs. Kirkpatrick. I'd like to call our attention to 
Appendix D of the interim report which we got today. It's the 
OIG oversight reports on VA patient wait times. We have had 18 
reports on patient wait times in 8 years, from 2005 to 2013. 
And now is the time, so we know there's a problem. We know what 
the problem is, and now is the time to fix it. I want to go 
then to----
    Dr. Lynch. Congresswoman, I think we have gotten the 
message. We know we have a problem. We know we need to fix it.
    Mrs. Kirkpatrick. Dr. Lynch, what I do not want to see in 8 
more years, 18 more reports, and we're still dealing with the 
same problem. That's my point.
    Dr. Lynch. Congresswoman, I don't want to see that either. 
I think we have a good health care system. I think we have a 
health care system that veterans value, and it's our 
responsibility to assure that we fix this problem and get them 
timely access and don't allow it to destroy the system. The VA 
offers many unique advantages to veterans. We have to assure 
they get those advantages. I think it's a solvable problem. I 
think the VA has solved problems in the past and has been 
better for the criticism we have received and, with the 
collaboration of Congress, has come up with models which have 
actually been exemplary and have been adopted by the private 
sector.
    Mrs. Kirkpatrick. I just want to call your attention to 
Appendix E, which is the April 26, 2010, letter about the 
inappropriate scheduling practices.
    Dr. Lynch, when did you find out about that letter; and 
when you did, what did you do about it?
    Dr. Lynch. I found out about the letter, I believe, when it 
was presented on NBC news approximately 2 weeks ago--2 or 3 
weeks ago. I had not seen it prior to that. It had been issued 
before I arrived in central office.
    Mrs. Kirkpatrick. Ms. Mooney, when did you first see that 
April 26, 2010, letter?
    Ms. Mooney. Probably sometime in 2010.
    Mrs. Kirkpatrick. And what did you do about it when you saw 
it?
    Ms. Mooney. I think, with that, we were all concerned, and 
VHA looked into it. I mean, there was an obvious reason why Mr. 
Schoenhard wrote that memo.
    Mrs. Kirkpatrick. I am extremely concerned about that 
answer. This clearly was sent to all of the directors and the 
central office in 2010, and nothing was done about it. How can 
that be?
    Dr. Lynch. Congresswoman, I wasn't there at the time. I 
can't answer that question. I only became aware of that memo 
and that letter within the last several weeks.
    Mrs. Kirkpatrick. Let me just say this. Let's make sure 
that this doesn't happen again.
    And, Mr. Chairman and Ranking Member Michaud, I think it's 
incumbent on this committee to continue our oversight 
responsibilities until this gets fixed. It is not acceptable 
that we have 18 reports in 8 years, and we're still dealing 
with the same problem. And our veterans are not getting the 
care they need.
    And with that, I yield back.
    The Chairman. Thank you very much.
    If I may ask one question. You said Dr. Davies, did he 
accompany you on your trip to Phoenix?
    Dr. Lynch. He was in Phoenix, Mr. Chairman.
    The Chairman. Was he part of your investigation?
    Dr. Lynch. He was part of the initial visit that we made. 
When I returned a week or so later, I had a different team with 
me that was specifically focused on looking at the scheduling 
process.
    The Chairman. And his job now is?
    Dr. Lynch. His job is in systems redesign and working with 
our access and performance measures.
    The Chairman. So that would be he's in the same position 
today that he was in 2010, because I'm looking at the memo from 
William Schoenhard, and it says, For questions, please contact 
Michael Davies, M.D., Director, VHA Systems Redesign. This is 
the same person that was on this memo.
    Dr. Lynch. It is, Mr. Chairman.
    The Chairman. Okay. Thank you.
    Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Ms. Mooney, I'm going to ask the same question that's been 
asked several times tonight. There are audits ongoing right now 
in the VA centers in each of our districts today. Is there any 
reason the VA would not share that information with members of 
this committee, with Members of the House and Members of the 
Senate on specifically what's happening in their VA center?
    Ms. Mooney. Congressman, we look forward to sharing that 
information with members of Congress related to----
    Mr. Denham. So are you committing that the VA will be 
sharing that with either public or private briefings with every 
Member that is requesting one?
    Ms. Mooney. I know, Congressman, that we will be briefing 
Members of Congress and their staffs on the results of the 
audit, absolutely.
    The Chairman. Will the gentlemen yield?
    Mr. Denham. Yes.
    The Chairman. Is it true that Senator Durbin has already 
received a briefing on Chicago?
    Ms. Mooney. No, I don't think so on the results. I don't 
know. I don't know.
    The Chairman. You're the Under Secretary for the Office of 
Congressional Affairs, and you wouldn't know if Senator Durbin 
already received a briefing on Chicago.
    Ms. Mooney. Here is what I know. I know facilities have 
not, not to my knowledge or understanding now. What 
facilities--we will be briefing out facilities as we go.
    The Chairman. I only make the request because I read about 
it in the media, and so I would find it very disingenuous if a 
United States Senator has already been briefed on a facility in 
his State and Members of the House of Representatives are 
asking for the exact same thing and we can't get it.
    And I apologize. I yield back to the gentleman. Thank you 
for the time.
    Mr. Denham. Thank you. I look forward to that information 
as well. As well I've heard that the Palo Alto audit is already 
complete, so I would expect that I have an immediate briefing 
this week. I'll be calling your office again later this week if 
I have not received a briefing before we head back home.
    Ms. Mooney. I look forward to it.
    Mr. Denham. I want to talk about a couple different cases 
that came up here. James Pert was a Marine who fought in 
Vietnam from 1968 to 1970. In his early 60s, James is partially 
disabled. His exposure to Agent Orange and PTSD led to numerous 
health problems, and he was suffering from skin cancer. When he 
moved to Phoenix, he visited the VA in need of cancer screening 
and was told the wait list to see a VA doctor was 6 to 9 months 
long, and then he signed up. Is there any reason, Dr. Lynch, 
that somebody would have to wait 6 to 9 months?
    Dr. Lynch. No one should have to wait 6 to 9 months, 
Congressman.
    Mr. Denham. No one should have to. I would agree with you. 
Is there any way possible that in Phoenix or any other VA 
system, that somebody would be told by a doctor that it would 
be a 6 to 9 month wait?
    Dr. Lynch. Congressman, I would hope not, but I don't know 
the specifics of the case.
    Mr. Denham. We have been hearing a lot tonight about trying 
and hoping, and trying and hoping is not solving this problem. 
Is there any problem with somebody moving to Phoenix from a 
separate area that they would be denied service because they 
came from an outside area?
    Dr. Lynch. Congressman, one of the areas that VA does need 
to work on is how we transfer patients across our system. It's 
not a seamless transfer, as it should be. We are working on 
processes to make that better. Ideally, if a veteran is being 
treated by the VA and moves to Phoenix, we should be able to 
coordinate that transfer so that he doesn't have to become a 
new patient in Phoenix.
    Mr. Denham. Thomas Breen was a 71-year Old Navy veteran 
from Brooklyn, New York, and when he fell ill, he went to the 
Phoenix Park VA. His condition was rated as urgent, but he was 
unable to secure an appointment. Is there any reason that 
somebody would come to the emergency room at VA, see a doctor, 
be rated as urgent and then sent home for several months?
    Dr. Lynch. Congressman, I don't have an explanation for 
that.
    Mr. Denham. Is there anywhere in the VA system where 
somebody comes into an emergency room under an urgent condition 
and they're sent home?
    Dr. Lynch. They should not, Congressman.
    Mr. Denham. And what is the standard wait time for an 
urgent claim.
    Dr. Lynch. Ideally, if the patient was considered to be 
urgent, it would depend on what the urgency was, but certainly 
he should be seen within 7 days. And if it was truly urgent, 
the patient should be admitted to the hospital.
    Mr. Denham. Should be doesn't always solve the problem. 
After 7 days, is there not a tickler file or some type of file 
or buzzer that goes off, a red light, that goes off that says, 
oh, my gosh, this guy was urgent, and it's been 7 days. Maybe 
somebody should follow up with a phone call. Is there no system 
like that today?
    Dr. Lynch. In Phoenix, I don't know, Congressman.
    Mr. Denham. He was admitted initially because of blood in 
his urination. It says there were no tests that were done. Is 
there any possible way that somebody could come into an 
emergency room urinating blood and no tests be done? Is that 
possible?
    Dr. Lynch. I would find it unusual, but I don't know the 
specifics of the case. It would be my expectation that there 
should have been tests done.
    Mr. Denham. His family has testified several times that 
they called over and over and over again. Would there be a 
record of those phone calls?
    Dr. Lynch. I don't know, Congressman.
    Mr. Denham. You don't know if there would be records? 
Somebody calls a VA center, and we don't document whether or 
not they called and what the issue was?
    Dr. Lynch. Congressman, I don't know where he called. I 
don't know the specifics. Ideally, if he contacted the call 
center, there should be a record that that call was made.
    Mr. Denham. Mr. Chairman, I'd ask your indulgence since I 
yielded so much time. I'll be real quick on my last couple 
pertaining to this one issue.
    The Chairman. You'll be quick on your last question.
    Mr. Denham. They waited from September to November.
    Mr. Breen died on November 30. Is there any reason why 
somebody who's waiting on a list, urgent or un-urgent, if 
they're waiting on a list, that they wouldn't, the VA would not 
be notified that somebody passed away?
    Dr. Lynch. I think it would depend on where he passed away. 
The VA in Phoenix now does have an arrangement with Maricopa 
County. They do receive a list of all individuals who died in 
the county so that they can look for any veterans that were on 
that list.
    Mr. Denham. And the VA called a week later. That's a good 
reason to make sure that we know so that you're not upsetting 
the family that much further after they've waited several 
months to get a phone call from VA after their father passed 
away. I would just add that Mr. Breen, his comments to his 
family were, I've got to go to the VA; that's where servicemen 
go. That is where we go. You serve your country. You want to go 
to the VA. I want a world class system for our VA, and I don't 
want to see any more lives lost in the process.
    Dr. Lynch. I don't either, Congressman.
    The Chairman. Mr. O'Rourke, you're recognized for 5 
minutes.
    Mr. O'Rourke. Thank you. Dr. Lynch, one of the important 
things I think that you have made a commitment to this evening 
is in your words to restore trust in the integrity of the data 
that we're receiving. Some good news that we received from the 
El Paso VHA was that in March of this year, veterans seeking 
new mental health care appointments waited zero days, which 
seems remarkable and is exciting, except for everything that 
we're discussing today and our inability to trust what we're 
hearing.
    I already said earlier that we took it upon ourselves to 
conduct a scientific survey to find out what the facts were and 
how long veterans were really waiting in El Paso. Could the VA 
not employ that same method, and in Phoenix, El Paso, 
everywhere that you're auditing results right now, could there 
not be just this one-time audit, but ongoing a continuing 
survey of the veterans, treating them as customers, finding out 
about the quality of their experience, and verifying their wait 
time as they experienced it against what the VA said they 
waited?
    Dr. Lynch. Congressman, one of the options we have been 
discussing internally is whether or not we could partner with 
the Veterans Service Organizations and use their members as 
resources to identify the kind of service we're providing and 
where they are experiencing delays. I think there is an 
opportunity there that clearly needs to be explored further.
    Mr. O'Rourke. I hope you will do that. Another thing that 
struck me was you were talking about a failure within the VA 
that resulted from elevating a performance measure into a goal, 
which could possibly have led to the scandal in Phoenix and 
other, perhaps other failures in other parts of the VA. If the 
current performance measures are not working, what are some 
recommendations that you have for how we measure performance at 
our VHA system?
    Dr. Lynch. Don't get me wrong. I think we need to have 
performance measures. I think they need to be tools that help 
us understand our system, and I think we need to focus on our 
primary goal, which is, are we seeing veterans? Is our system 
growing? Are we providing quality care? When those become the 
goals of the system, then you cannot game performance measures. 
Performance measures become a tool. If you ignore them, then 
you're actually hurting yourself because you're not growing 
your system like you're supposed to. And as a director or an 
administrator, you will fail.
    Mr. O'Rourke. I also appreciate your commitment to do more 
to listen to providers and try to make their jobs better and 
make the processes that they undertake more efficient. When we 
met with providers in El Paso, we heard stories about a doctor 
having to write a prescription to a veteran to be picked up by 
a van to be taken to a bus station to be taken by that bus to 
Albuquerque because we don't have a full service veterans 
hospital in El Paso. All that obviously could have been done by 
a frontline clerk, but the processes and procedures within that 
VHA mandate that he does that, which further depresses his 
morale and his ability to see the patients that he wants to 
take care of. So I appreciate the commitment that you've made 
there as well.
    Dr. Lynch. If I can just comment briefly, I think VA has a 
real opportunity as an educational institution to be able to 
recruit physicians who are familiar with our process and our 
electronic medical record. We have to assure, during the course 
of that training, that we have a system that is physician 
friendly. We have to identify those things that are not 
physician friendly, that interfere with physician 
effectiveness, so that we can effectively recruit those people 
who are training in our system, who are familiar with our 
system. It's a huge opportunity.
    Mr. O'Rourke. When I was running for this office in 2011 
and 2012, I met veteran after veteran who told me they couldn't 
get in to see a mental health provider for the entire year, and 
this is at the beginning of 2012. They said all appointments 
have been booked for the entire year. I cannot get in. It's 
very hard for me to believe, but it has since been confirmed by 
the data that we have been able to obtain. When I got into the 
office we asked for a manning table. We found 20 full-time 
equivalent vacancies. We have been working with the local VA to 
staff those up, but when we get somebody and we recruit them 
and we bring them to El Paso, it's difficult to retain them. 
They don't make as much within that system as they do within in 
the DOD, as they do in the private sector. Do you have enough 
resources from Congress to hire and retain the providers that 
you need to provide the coverage and the care that our veterans 
have earned?
    Dr. Lynch. Congressman, if we don't, I will be the first 
one to come back and let this committee know.
    Mr. O'Rourke. You're saying you do today?
    Dr. Lynch. Pardon? I'm saying I don't have visibility right 
now on what we're going to need to staff our system 
appropriately so that we can see veterans in a timely fashion. 
Once I know that, once I know what our needs are, I can assure 
you that I will advocate to assure that we have the necessary 
resources to hire those physicians.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Huelskamp, you're recognized for 5 
minutes.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    I'd like to follow up on a few questions I asked in my 
previous round, the first. I appreciate my colleague from 
Arizona referencing 19 reports. There are also 16 GAO reports, 
and this is nearly a decade. This is nearly a decade of 
excuses. I don't know if Dr. Lynch was there, Ms. Mooney was 
there, Mr. Huff was there. I'm sure he wasn't. He's fairly new, 
but what I've heard today is there's no accountability for any 
one of these. We'll throw it on the shelf. Let's start all over 
again. We'll start all over again. So 35 reports, 10 years 
later, almost a decade later, we're still here trying to get 
answers to the same questions asked in 2005. But what I want to 
ask you today is a question I asked in March 14 of 2013, and I 
think Dr. Lynch was at that hearing. As far as the issue of 
accountability and holding your employees responsible for 
misconduct and gaming the system--that was back in 2005. I 
requested a list of those who have been punished, censored, and 
lost their bonuses. That has not been provided. I've been 
waiting since March 13 of 2013. When can I expect that report 
from your office?
    Dr. Lynch. Congressman, I don't know where that report is. 
I would have to defer to Ms. Mooney.
    Ms. Mooney. I'm sorry. What was the date again, sir?
    Mr. Huelskamp. March 14, 2013. Mr. Schoenhard was before 
the committee and made reference to gaming the system, and I 
asked him questions of who would be punished? How would they be 
treated? Meanwhile, the bonuses continue. Do you realize the 
information that we have--this is from a Web site source. We 
can't get it from your agency--but at Phoenix, $843,000 worth 
of bonuses. That was over a 2-year period. My question, what we 
haven't received yet, is the listing of those who lost their 
bonuses for failures in the system. Who are we going to hold 
accountable? It's easy for you to stand up here, maybe not easy 
to say, well, the buck kind of stops here or maybe doesn't at 
all, but the buck stops on who made the decision, the director 
in Phoenix. Maybe there's one. My question is, when will I get 
that report answered about what just came out at noon?
    Ms. Mooney. Congressman, I'll work to get an answer to your 
question.
    Mr. Huelskamp. How soon will I get an answer, Ms. Mooney? 
Again, March 14, 2013, still waiting to know how the Secretary 
of the VA is going to hold employees accountable and 
responsible for what I think are criminal violations.
    Ms. Mooney. I will work to get that information for you, 
Congressman.
    Mr. Huelskamp. Last thing, Mr. Chairman.
    I started along this line of questioning trying to identify 
how many waiting lists are at all VA facilities, and if I 
understood Dr. Lynch, every facility has a NEAR tracking 
report? Is that correct, Dr. Lynch?
    Dr. Lynch. Every facility receives a NEAR report, which is 
the new enrollee appointment request.
    Mr. Huelskamp. And every VA facility has a schedule and 
appointment consult as well?
    Dr. Lynch. That may be unique to facilities. That is not 
probably universal across VA. That is a tool which can be used.
    Mr. Huelskamp. And the OIG also referenced at the Phoenix 
VA, screen shot paper printouts, which are not reports, but 
there were 400 veterans hiding in that system. And, again, to 
quote the OIG is these veterans, and that's 1,700 folks hidden 
in these secret waiting lists, that could be at any VA clinic, 
were and continue to be at risk of being lost or forgotten. As 
a result, these veterans may never obtain the requested or 
required primary care appointment. So if I understood correctly 
from the report and from your testimony is these secret waiting 
lists could be at every VA facility in the country. Is that 
correct?
    Dr. Lynch. Congressman, I don't think they were secret.
    Mr. Huelskamp. How did you not find them?
    Dr. Lynch. I did find them, Congressman.
    Mr. Huelskamp. How many were on the list? You told me you 
didn't even look at this list.
    Dr. Lynch. I told you we didn't document the numbers. I 
told you we were aware of the process.
    Mr. Huelskamp. Why didn't you report to the press and to 
Mr. Shinseki and the President of the United States that there 
were 1,100 veterans waiting for care on that list? Did you tell 
anybody above you? You waited 35 days, 35 days that you cared 
for veterans--you said you care about them. They waited on a 
list languishing.
    Dr. Lynch. Congressman, I was focused on trying to improve 
the process.
    Mr. Huelskamp. What about the 1,100 veterans? So you knew 
these veterans that were waiting for care, primary care----
    Dr. Lynch.--I wish I had identified the numbers of 
veterans, and we could have moved forward more quickly.
    Mr. Huelskamp. Did you try to do anything to try to get 
care for these veterans, 1,100 veterans waiting? Some of them 
might have been on the list that died?
    Dr. Lynch. Congressman, we identified the processes, and we 
put people on the ground.
    Mr. Huelskamp. Yes or no, did you do anything for those 
1,100 veterans?
    Dr. Lynch. Congressman, I put in place an understanding of 
the process which allowed us----
    Mr. Huelskamp. They are still waiting for care. I think 
that's your answer.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Walz, you are recognized for 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman.
    What you're hearing tonight is Members of Congress are 
doing what they should do; they're channelling the American 
public. As Mr. Cook said, many of us on Veterans Day, as I'm 
sure you all did, heard this. It's on people's minds, which 
shows you their commitment to getting this right is there and 
finding solutions. And I appreciate that statement, Dr. Lynch, 
that this is about establishing and maintaining the good parts 
and the important parts and the critical parts of a world class 
health care system and trying to reestablish that sense of 
trust, so they're channeling that.
    It's also incumbent upon us to understand how things work, 
how the system works and understand the positions you're in and 
where you're at. I think it's important to point out there's 
people that failed our veterans horribly. There's people that 
failed the Secretary in this, as you're hearing. I do think 
it's important, and I would note, Mr. Huff's not a political 
appointee. He's a civilian, civil servant, and he's a veteran.
    And I'm not certain why you're here, Mr. Huff, and so but I 
appreciate you coming here. I appreciate you standing and being 
willing to answer the questions.
    I think as we go through this painting with the broad 
generalized brush, it is not going to be helpful. But this 
desire to hold accountable, it's not personal in terms of 
personally trying to damage someone. It's personal about the 
care for those veterans, and it's personal about this belief if 
someone cannot be held accountable for such egregious 
dereliction of their duty, how can we expect for it to get 
better?
    So I hope you're in that. I would ask, and I think the 
statement that's coming through on this is, yes, we need the 
data. Yes, we don't need to jump to conclusions. Yes, people 
deserve due process. Veterans on the list Mr. Huelskamp was 
talking about and people that are sitting here or elsewhere 
trying to get that right.
    I would suggest or put forward in seeing this, I think one 
of the things I think we're going to find out in this is that 
why it's a large system, there are distinct differences inside 
of VISNs and inside of institutions. I would put forward to you 
as we went out several weeks ago to the Minneapolis VA, I went 
with the leaders of our Veterans Service organizations, and as 
Director Kelly and his staff briefed us, we did the audit 
you're talking about. They produced the numbers we're talking 
about. And then I asked them and told them we're going to 
produce this for the press. And a courageous decision was made 
by the VISN director to go ahead and release that data and put 
it out there. And so what you had happen was, that you had this 
audit, you had the VSOs, who, by the way, hold offices inside 
that medical center. The legion sits in that office. And so 
these leaders were there, and you know what else they do? On a 
weekly basis, they meet with the director. They are the 
consumer advisory board that meets with the director. So many 
of them were saying, I don't know and we will still find out, 
but I don't think we could be surprised. But there was a 
collaboration and a cooperation. And it was released to the 
press, and guess what happened? A belief amongst the press and 
an outpouring of people saying, well, yeah, they're failing on 
that. Audiology is too long, as you heard them say. People are 
waiting too long for their hearing aids. Ophthalmology has 
gotten a little better. Primary care is pretty good here, not 
so good here. But we had an honest accounting. And you know 
what the public said was, all right, at least now we know where 
things are at. Let's find solutions.
    By not getting that data, by not having that collaboration, 
by not having that cooperation, by not pulling in your partners 
who want to help you, it creates the frustrations you're 
hearing. So I can't go backing up again. I will not, and will 
not allow people to paint this system with a generalized brush 
because I know the high quality of care. I know veterans' lives 
are depending on it being open, but I also will not sit back 
and allow you or anyone else to let this system disintegrate 
because we're unwilling to answer some of these questions.
    What Mr. Huelskamp asked about the bonuses is not 
unreasonable at this point. What others are asking on this, and 
I don't know why, and I get it, everyone deserves their due 
process, but there's such a desire on this, this ends up 
looking like you're protecting the bad actors. And it can't be 
healthy for you. It can't be. And the question that got asked 
is, I know you're all a team. I'm an enlisted guy. We know 
where this is going. You're being a team player in this, but 
they're pulling you down. They're pulling the system down. The 
bad actors are doing this. We have got to hammer this. We have 
got to hammer it now. We can't wait this long. We know what's 
out there.
    I just am baffled that some people have not just stood up 
and said, we were doing it wrong; I'm going. This is the way it 
is. That's not about a pound of flesh for the sake of firing 
somebody. It's about that we have got to have some healing. 
This truth commission, that Mr.--it's almost that way. So it's 
a statement.
    I want to make clear, Mr. Huff, you did not deserve to be 
treated in that way. None of you do in this case, but it 
doesn't mean that someone is not going to have to say, yep, 
it's me. Let's go forward and let's get this.
    Because, Dr. Lynch you summed it up; it is too important of 
a mission to fail.
    I yield back.
    The Chairman. Thank you, Dr. Wenstrup, 5 minutes.
    Mr. Wenstrup. I do believe that the VA is better for a lot 
of things that veterans need. It's a better place for them to 
be, where they're around those that have similar ailments, 
similar problems, whether it's reaction from Agent Orange, TBI, 
PTSD, things like that. I know we have a lot of great 
providers. I heard an expression for the first time a couple 
weeks ago, and I think it's probably true: If you've seen one 
VA, you've seen one VA. And they're all very different. And 
that's a problem that we have within our system. Dr. Lynch, I 
know you've been a provider. Have you ever been in private 
practice?
    Dr. Lynch. I've been in academic practice.
    Mr. Wenstrup. Okay, and that was the same thing I asked Dr. 
Petzel at one point. We have a lot of people that never have 
been in private practice, which is a different model, which is 
driving to see more patients, as we alluded to before, and to 
do it efficiently, and that you wouldn't let people wait 
because you need to get them into your practice. That's how you 
keep your doors open. Dr. Roe referred to either adding a 
doctor because we know we are already efficient, things like 
that. And that's what I think we need to look at. And you know, 
when I got here, I'm a new member and I came. I want to be part 
of the solution and I met with General Shinseki about three 
times and offered every time to go into VAs, to go into 
hospitals, in the ORs, the clinics, and say, how can we do 
things better? I've been a provider in DOD. It's another 
government-run system, if you will. And there's a lot of things 
that have been referred to tonight where you're doing stuff 
that a physician shouldn't have to be doing because it takes 
away from actually seeing patients. And, again, it gets to that 
problem of actually patients into the door. You know, the IG 
referred last week to, as we put more money into what we saw as 
more bureaucracy, not more care being given, that's a problem 
that we need to address. One of my questions is, are we really 
looking at physician-driven policies? Are we getting 
bureaucrats driving the policies or physicians driving the 
policies?
    I have two partners in my private practice, orthopedic 
surgeons. They go to the VA once, twice a month. And they say, 
you know, I do two surgeries in the time; in my private 
practice, I do six to eight. I mean, that's a problem. That's a 
problem we have got to face, and you're hearing more and more 
stories like that. So are we letting the physicians drive the 
policy, or are bureaucrats driving the policies?
    Dr. Lynch. Congressman, I hope we're seeing more physicians 
in leaderships roles. I made that decision 3 or 4 years ago 
that I thought it was a good move to get further education, to 
learn more about management, and to try to be a physician who 
provides a physician's input into management. I think it is 
important. I think you make good points. I think our physicians 
can work more efficiently. I think, in fact, it's much easier 
to hire support personnel than it is to hire a physician.
    Mr. Wenstrup. Well, exactly, it is and those are your 
physician extenders and allow you to do more.
    Dr. Lynch. And I don't think we have taken advantage of 
that model in VA as effectively as we can.
    Mr. Wenstrup. No, and I will tell you. You want to talk 
about the concern of this committee. There's four doctors on 
this committee, bipartisan, and we met separately with Dr. 
Jesse and with Dr. Agarwal to discuss how we're evaluating 
efficiency. And nowhere in there was it like, well, how many 
patients on average is a certain specialist seeing in an 8-hour 
period? Well then what are you measuring? I understand you're 
looking at quality, and cost, and things like that, but if 
you're not looking at numbers--so in our private practice, if 
one doctor is seeing 60 patients in an 8-hour day, and another 
is seeing 30, we're taking a look at what's going on in that 
situation and how we can make it better. There's nothing within 
the system that drives that, and that's one of the things that 
we have got to change if we're going to provide access to care.
    Dr. Lynch. Part of that new productivity model that Dr. 
Agarwal may have talked about does involve measuring RVU 
productivity.
    Mr. Wenstrup. Correct.
    Dr. Lynch. And does involve comparing that against access, 
so I think we're moving in that direction.
    Mr. Wenstrup. I think so, too. It was a productive meeting. 
It was off the record where we just had a frank conversation as 
providers and trying to solve problems. I'll leave it at that. 
We're going to continue those conversations and hopefully drive 
things in a better direction.
    Dr. Lynch. I look forward to continuing the discussions. I 
think we do have a lot to learn from the private sector. I 
think we can learn and we can make a better system and still 
preserve VA care for veterans.
    Mr. Wenstrup. I hope so. I wanted to ask one other thing. I 
was wondering if we can be provided with the legal memo that 
articulates the reasoning for the general counsel to conclude 
that withheld documents are privileged. And that memo can be 
redacted, and we would just like to see some justification or 
precedent set in this situation. Is that possible to get a 
legal memo on that?
    Ms. Mooney. I'll take your request to the general counsel, 
sir.
    Mr. Wenstrup. Please. Thank you. I yield back.
    The Chairman. I think there's an assistant general counsel 
in the room. Could we get an answer from that individual? 
There's nobody here from--I'm sorry.
    Sir, could you step forward and identify yourself?
    Mr. Hipolit. Richard Hipolit, deputy general counsel for 
legal policy.
    The Chairman. Thank you.
    Dr. Wenstrup, would you ask your question again?
    Mr. Wenstrup. Could you provide us with a legal memo that 
articulates the legal reasoning from the general counsel to 
conclude that withheld documents are privileged, and that memo 
can be redacted? We would just like to see some justification 
of precedent here.
    Mr. Hipolit. Yes, we'll do that.
    The Chairman. And, sir, while you're here, can you find out 
why Mr. Huff's notes were not delivered to the committee as 
requested in the subpoena?
    Mr. Hipolit. Yes, I'll check into that.
    The Chairman. Thank you, sir. Very much.
    Ms. Walorski, you're recognized for 5 minutes.
    Mrs. Walorski. I just have a quick question for Dr. Lynch 
and Ms. Mooney. Based on the data in the inspector general 
report, do you believe there's a need for a criminal 
investigation?
    Dr. Lynch. I think the inspector general will make that 
recommendation. I believe, based on their findings, they have 
the ability to initiate a criminal investigation if they think 
it's appropriate.
    Mrs. Walorski. And you concur with their findings?
    Dr. Lynch. We work with the IG. I respect their opinions. I 
respect their reports, and I think if they feel there is 
criminal case, then we need to respect that judgment and let 
the process follow through.
    Mrs. Walorski. And Ms. Mooney?
    Ms. Mooney. I concur with Dr. Lynch.
    Mrs. Walorski. Thank you.
    I yield back my time, Mr. Chairman.
    The Chairman. Mr. Jolly, you're recognized for 5 minutes.
    Mr. Jolly. I want to associate my remarks with those of Mr. 
Walz. I think you're hearing tonight a frustration of the 
members here because we do have an Article I authority to ask 
the questions, but our frustration is rooted in the fact that 
while we conduct the necessary oversight as part of our Article 
I responsibility, we continue to hear of a wait list and know 
that there are wait lists, and we are held accountable for that 
from our constituents. It's kind of a remarkable process that 
our constituents hold us responsible for a wait list created by 
the administration, and that's probably fair because we have to 
execute our responsibility. We have the privilege of living 
outside the beltway and working inside the beltway, and so we 
do hear stories from within our own community that are 
personal. We hear of delays in medical care. I had a gold star 
mom who came up to me Memorial Day; she believes that her son 
took his life because of a lack of timely mental health care, 
and that's a real story within our community.
    That is the frustration because while we have to provide 
the oversight and get to the bottom of it, all of this is 
occurring while there's still a wait list. And so my message is 
very simple, and I mean it constructively, we need to clear the 
wait list now. We will get to the bottom of how we got here, 
but the American people, the people in my community, are more 
concerned with the fact that a wait list exists than how we got 
here. And ultimately, that's a responsibility and a fix that we 
have to rely on the administration for. And we have to rely on 
the President for his leadership, and I'm asking for his 
leadership on this. It is not political. When he spoke last 
week, he spoke of the investigations into how we got here. He 
spoke of sending Mr. Nabors to Arizona, and all that is right 
and well, but he didn't speak to clearing the wait list. And on 
behalf of all of us and on behalf of the administration, I 
think we need tangible measures to restore the crisis in 
confidence of the American people right now that's been created 
by the notion of a wait list, that there's untimely care being 
provided by the VA. That's the issue that we need to hear 
addressed.
    Dr. Lynch, I'm pleased to hear that there is a plan in 
place over the next 48 hours to get to the bottom of it, but I 
think the American people need to know that. And my only 
question really is this, will you take back to the Secretary 
and, frankly, to the President of the United States, a plea 
from this Member of Congress to please hold a second press 
conference on this issue to talk about how the Department is 
going to immediately clear the wait list while we then engage 
in the long-term institutional reforms that are required to 
ensure this never happens again?
    Dr. Lynch. I can certainly carry that back to the 
Secretary. I don't know whether I have access to the President, 
but I think I can get the message across.
    I think you've made your point. I think it's an important 
point. I think we need to get out ahead of this and say that we 
are doing something about this, that we are aware of it, we do 
have a process to resolve the problems that we see, and to move 
forward with a better VA health care system.
    Mr. Jolly. I appreciate that response. And, again, I mean 
this with the utmost respect. I don't mean this politically. 
But this does need to go to the President of the United States, 
and here's why: When he held his press conference, he took 
credit for having made reforming the VA a top priority when he 
ran for Senate and again when he ran for President. Last week, 
in his press conference, he took credit for the reforms of the 
VA that he was responsible for.
    If he's going to take credit for those reforms, he needs to 
lead on this issue. It's not political. He needs to lead on 
this issue. I'm asking for his leadership on this issue. And I 
can tell you, people within my district and I know communities 
across the country are asking for that leadership. And I, for 
one, will rally behind him the moment I see it, because it's 
not a partisan issue.
    I yield back. Thank you.
    The Chairman. Thank you.
    And the final question, Ms. Brownley, you're recognized, 5 
minutes.
    Ms. Brownley. Thank you, Mr. Chairman. And I want to thank 
you and the ranking member for putting together this important 
hearing. I'm sorry that I missed a portion of it. I had an 
amendment on the floor on veteran treatment courts and was 
trying to deal with that.
    But, you know, I want to echo what Mr. Jolly just said. I 
think I also--my constituents and my veterans and my community 
also are saying--they're not so concerned about how we got 
there right at this moment, but they want to resolve this issue 
in terms of getting a timely response and making sure that 
their health care needs, both physical and mental health care 
needs, are taken care of. We've got to figure out the long-term 
problems, without question.
    I think the one question that I wanted to conclude on is 
that I'm happy that we're going to do a, sort of, national 
audit. I want to understand what that includes. Does it 
include, like, the Oxnard CBOC in my district? Does it go down 
to that level? And I want to know----
    Dr. Lynch. It is my understanding that the audit has now 
been extended to all VA health care facilities.
    Ms. Brownley. Very good. Very good.
    And then, if the VA could provide us with a timeline of 
every single facility and when this audit is going to take 
place and when it will be completed and what are the results of 
that, so that we have a timeline that we can report back to our 
districts on but that we can also monitor and watch to make 
sure that we're covering every single facility across the 
country. Phoenix has brought a lot to our attention, but I'm 
concerned about so many other facilities across the country.
    And if I could get your commitment today that you will 
provide us with that information, I would be very appreciative.
    Dr. Lynch. I will do my best to get you that information. I 
think it is available. I think our process has been well-
tracked, and I think we should be able to basically show you 
when each facility was audited and, when the report is 
finished, to give you information about the audits at each of 
our facilities.
    Ms. Brownley. Thank you very much, and I yield back.
    Mr. Michaud. Madam, would you yield?
    Ms. Brownley. Yes, I would yield.
    Mr. Michaud. I have a follow-up question that, Mr. Lynch, 
that you responded to Dr. Roe, as far as performance and 
metrics. Did I understand you correctly that the different 
VISNs are the one that do their own performance and how they 
evaluate?
    Dr. Lynch. The network directors establish the performance 
measures for the medical center directors. The Deputy Under 
Secretary for Health for Operations and Management establishes 
the performance measures for the network directors.
    Mr. Michaud. Okay. But are they different in different 
networks?
    Dr. Lynch. I believe the networks--there are some 
performance measures that are standardized across the system. 
There is some flexibility to introduce performance standards 
that may relate specifically to the network or to the facility.
    Mr. Michaud. Okay. Yeah, I wish that you would look at 
that, because what concerns me is, if different networks have 
different performance measures, I don't know why they would be 
different.
    Because my big concern is, actually, I know when the 
American Legion went to the Baltimore facility when they were 
doing the System Worth Saving, they questioned how the Veterans 
Benefit Administration was dealing with claims at the Baltimore 
facility. The response that American Legion told me from the 
staff at the Baltimore facility was, ``There is the VA way of 
doing things, and then there is the Baltimore way of doing 
things, and we're doing it the Baltimore way of things.''
    So that is a concern that I have, is even though the 
Secretary might say, this is the way it is systemwide, you've 
got different regions doing things differently because that's 
the way they've always done that. And it gets right back to the 
metrics, performance measures, and how we hold different 
regions or employees accountable if it's different in different 
regions.
    And I think that definitely has to be looked at, is what is 
that performance measures and metrics, and if it's good for one 
region, why isn't it good for another. So----
    Dr. Lynch. I think regions and facilities may be different. 
So, in some cases, there may be a necessity to have some 
flexibility in assigning performance measures based on what you 
need to achieve at that facility.
    Mr. Michaud. Okay. Thank you.
    And I yield back.
    Ms. Brownley. I thought I was supposed to yield back.
    Mr. Michaud. I yield back to you, Ms. Brownley.
    Ms. Brownley. I yield back.
    The Chairman. Do you have any further statements?
    Ladies and gentlemen, thank you for being here tonight. 
Thank you for your interest.
    Thank you for appearing. It goes without saying, the 
subpoena will not be served. Thank you for coming here tonight.
    This hearing's adjourned.
    [Whereupon, at 11:34 p.m., the committee was adjourned.]

                                APPENDIX

                                 <F-dash>

              Prepared Statement of Jeff Miller, Chairman

    I would like to welcome everyone to our hearing tonight where we 
will discuss VA's continued lack of compliance with the subpoena for 
documents we issued on May eighth [8th].
    First, I would like to ask unanimous consent that Representative 
Sheila Jackson Lee from the state of Texas be allowed to join us here 
on the dais tonight.
    Hearing no objection, so ordered.
    As I am sure many of you are aware, this afternoon the VA Office of 
Inspector General issued an interim report that confirmed appointment 
scheduling manipulation, discovered by this Committee, and 
substantiated that significant delays in access to care have negatively 
impacted the quality of care at the Phoenix VA Medical Center.
    The OIG also indicated that it has expanded its investigation and 
has opened cases regarding forty-two VA medical facilities nationwide. 
The OIG clearly found that inappropriate scheduling practices are 
systemic throughout VA. The OIG's interim findings make it all the more 
urgent for VA to come clean and fully comply with our subpoena. 
Veterans' health is at stake, and I will not stand for a department 
cover-up. Further, to fulfill our congressional oversight duties, it is 
absolutely essential to receive the documents we request from the VA.
    The scope of the May eighth [8th] subpoena was very narrow and was 
sufficiently tailored to provide a reasonable time to produce the 
documents in full. The subpoena simply demanded production by may 
nineteenth of all emails and written correspondence sent and received 
by certain VA officials between April 9, 2014 and May 8, 2014, 
regarding the destruction or disappearance of alternate or interim wait 
lists at the Phoenix VA Medical Center.
    My staff was told that the Committee would only be receiving a 
partial response on the original due date and that VA would produce 
additional documents on a rolling basis over an indefinite and 
undefined period of time thereafter.
    If this Committee were to acquiesce to VA's unilateral rewriting of 
the subpoena terms, it would perpetuate VA's belief that selective 
compliance with Committee requests is acceptable and would allow VA to 
continue its perceived mission to prevent this Committee from doing its 
job.
    Last night, we received from VA what they purport to be the last of 
the three sets of documents they have produced to the Committee. The VA 
has claimed that they searched twenty seven different record custodians 
and they have produced over fifty-five hundred [5500] pages of 
documents. At this point, given their pattern of stone-walling 
Committee requests, I am not at all convinced that they have conducted 
a thorough and comprehensive search for responsive records.
    I know that VA is withholding documents relating to at least three 
relevant communications by claiming attorney-client privilege. However, 
VA failed to produce the privilege log demanded by the subpoena, or 
provide any explanation whatsoever, which is necessary for us to 
consider whether we will accept the assertion of privilege. This 
Committee deserves a complete explanation of the interim list document 
destruction at Phoenix and for its general failure to respond to 
ongoing requests related to delays in care.
    Last week, I invited Ms. Joan Mooney, Dr. Thomas Lynch, and Mr. 
Michael Huff to explain VA's incomplete record production to the 
Committee.
    They failed to show.
    On May 22, we prepared three additional subpoenas for Dr. Lynch, 
Ms. Mooney, and Mr. Huff to compel them to appear before us this week, 
if they again decided to decline our invitation to this evening's 
hearing. We expect VA to be forthcoming, but unfortunately it takes 
repeated requests and threats of compulsion to get them to even be here 
today. I look forward to hearing what they have to say.

        Prepared Statement Mike Michaud, Ranking Minority Member

    Thank you, Mr. Chairman.
    Tonight we again find ourselves in a difficult position. I 
appreciate the witnesses appearing before us this evening, and for the 
additional production push of materials that came overnight. 
Unfortunately, those materials, and the release of the interim IG 
report today, did not provide the answers we sought, but rather, just 
raised more questions.
    Mr. Chairman, I share your frustration. I share your passion for 
getting to the bottom of this issue. We have been bipartisan on so many 
things within this Committee. I am hopeful we can continue that, even 
as this situation gets increasingly difficult and emotionally-charged.
    I am not completely satisfied with VA's response to our inquiries 
and their compliance with the subpoena. However, I do feel, over the 
past few days, there has been a shift toward increased responsiveness 
and offers to try and work harder to satisfy our requirements. A key 
takeaway for me tonight will be hearing the VA respond to our requests 
for information, and what their reasons are to-date for failing to do 
so in a timely manner.
    Let me be clear. I am not happy with this situation. I am not 
wholly satisfied with VA's responsiveness. We expect answers. We will 
get to the bottom of this issue, uncover the truth and ensure a 
solution is implemented that never allows something like this to happen 
again.
    We expect accountability--full accountability--for every failure 
that harmed a veteran, and for every individual who perpetrated such 
harm. I strongly urge the IG to diligently--but swiftly--provide a 
comprehensive, final report so we can take action and people can be 
held accountable.
    We all share the same goal of ensuring our veterans receive the 
highest quality care and treatment possible--they deserve nothing less. 
I believe, as national leaders, we must rise above politics and 
emotion, and act pragmatically to achieve the best outcomes for 
veterans. We must take responsible actions that will yield real 
results, and take care not to politicize our work or this process. I 
look forward to the opportunity to get some substantive answers from 
the VA tonight.
    With that Mr. Chairman, I yield back.

                                 <F-dash>

                Prepared Statement of Hon. Corrine Brown

    Mr. Chairman and Ranking Member:
    On January 16, 2003, in response to an increase in veterans 
requesting benefits from the VA, the Bush Administration limited the 
number of veterans who could access the services they earned through 
their sacrifices.
    On June 15, 2009, Secretary Shinseki reversed this order and 
because of that decision, millions more veterans enrolled in the VA 
healthcare system.
    The Secretary also created numerous presumptions regarding the 
illnesses Vietnam veterans are suffering. In addition, veterans who 
suffer from PTSD and TBI were given access to the VA system. This was 
the right thing to do, even though it also added millions of veterans 
to the system.
    Mr. Chairman, I am surprised at the direction this Committee has 
taken. The news reports correctly say this is only the second subpoena 
of the VA in its history. What they don't say is that both have been 
prompted by the current Chairman.
    And today the Chairman called for the resignation of Secretary 
Shinseki after saying for weeks that he wanted to wait for the 
Inspector General's complete report to be released. We should keep in 
mind that the interim report states that ``despite the number of 
allegations, each individual allegation is nothing more than an 
allegation.''
    It is incumbent upon us to wait for the evidence before passing 
judgment. Attacking the people doing this work is not conducive to 
serving our veterans.
    This past Memorial Day weekend, I had the honor to talk to many 
veterans about the care they are receiving. In Clay, Alachua and 
Seminole counties; and the cities of Jacksonville and Orlando, I talked 
to those veterans who have a vested interest in how the VA functions 
and I didn't talk to one person who was upset by their care.
    As the President said recently, those ``who have been fighting on 
the battlefield . . . should not have to fight a bureaucracy at home to 
get the care that they've earned.'' I agree and am pleased the VA has 
brought down the claims backlog by almost half, and is well on its way 
to being eliminated by the stated goal of 2015.
    The VA provides quality and timely healthcare to our veterans. We 
have a duty to make sure that all those who have defended this country 
when called upon receive the care they have earned through their 
service. I support the Secretary in his nation-wide access review and 
look forward to hearing his report when it is finished.

                             FOR THE RECORD

                   Statement From: Hon. Corrine Brown

    Today the grandstanding Governor of Florida filed suit against the 
VA regarding their lack of access to private veterans' health records.
    This past Memorial Day weekend, I did my reconnaissance in Florida 
and had the honor to talk to many veterans about the care they are 
receiving. Jacksonville; Clay, Alachua and Seminole counties; and 
Orlando, I talked to those who have a vested interest in how the VA 
functions. I didn't talk to one person who was upset by their care.
    We are in good shape in Florida because of the Oversight of this 
Committee.
    The new clinic in Jacksonville, the wrap-around construction in 
Gainesville and the new operating rooms in Miami. Hopefully soon, a new 
hospital in Orlando. We have new cemeteries in Bushnell, West Palm 
Beach, Jacksonville and Tallahassee.
    Our Veterans Affairs Committee, headed by Chairman Jeff Miller, 
other Oversight Committees in the House and Senate, and the agencies 
Office of Inspector General are fully capable of providing proper 
oversight of the Department of Veterans Affairs. The Florida VA treats 
over 546,874 veterans, and provides healthcare that has consistently 
been rated in the top 10% nationwide for the care of our veterans.
    My message to Governor Scott: I and every Member of Congress are 
committed to ensuring the proper care of our veterans.
    Florida is taking care of its veterans.

                                 <F-dash>

          Letter From: Hon. Corrine Brown: To: Hon Rick Scott

    The Honorable Rick Scott, Governor, State of Florida
    The Capitol, 400 S. Monroe St.,
    Tallahassee, FL 32399-0001
    Dear Governor Scott:
    I am writing to express my grave concern that employees of the 
Florida Agency for Health Care Administration, at your specific 
direction, have entered and questioned staff at U.S. Department of 
Veterans Affairs facilities in Florida. Neither you as the Governor, 
nor any of your state agency personnel, have any authority over our 
nation's federal agencies or activities. Your failure to acknowledge 
and respect the separate role of state and federal government is 
inappropriate, unprecedented, and could be a violation of the law.
    Ironically, the same agency you directed to make these unauthorized 
visits, purportedly out of a concern for the quality of healthcare 
being provided to our veterans, has failed to provide health services 
to 900,000 deserving Floridians. Even more troubling, the $55 billion 
dollars being provided by the federal government to expand Medicaid to 
uninsured Floridians is made up of taxes Floridians have already sent 
to Washington. Yet just like the federal funds for high speed rail that 
were refused by the governor and quickly disbursed to other states, 
this funding for Medicaid expansion will eventually be accepted by 
other states who choose to provide health coverage to their residents. 
Meanwhile, the majority of Florida's nearly one million uninsured 
citizens would continue to go without insurance.
    Additionally, the changes to the Medicaid program instituted 
through your requested waiver are harming patients care. One stark 
example is the change to the client transportation system. My office 
has heard from both local elected officials and providers that patients 
are not being provided proper transportation, and this inadequate 
transportation is jeopardizing the safety and health of the Medicaid 
patients. In fact, my congressional offices have even heard reports of 
people being dropped off at incorrect addresses, patients being driven 
by drivers who are unprepared or lack knowledge of their specific 
health needs, and even cases where patients have been lost and their 
families subsequently had to file a missing person's report just to 
locate them--again--because of the disastrous implementation of the 
transportation portion of your Medicaid waiver program.
    This coupled with the continued problems at the Department of 
Children and Families, including their repeated failure to protect 
vulnerable children, Enterprise Florida's failure to create jobs or 
account for funding, the Department of Economic Opportunity's failure 
to provide jobless benefits for Florida citizens, and the repeated 
scandals at the Orlando Expressway Authority, make it clear that there 
are serious oversight issues at your own state agencies.
    Our Veterans Affairs Committee, headed by Chairman Jeff Miller, 
other Oversight Committees in the House and Senate, and the agencies 
Office of Inspector General are fully capable of providing proper 
oversight of the Department of Veterans Affairs. The Florida VA treats 
over 546,874 veterans, and provides healthcare that has consistently 
been rated in the top 10% nationwide for the care of our veterans. I 
assure you that I and every Member of Congress are committed to 
ensuring the proper care of our veterans.
    I would recommend that you and the state agencies you oversee focus 
on the many serious problems facing the citizens of Florida due to the 
dangerous budget cuts implemented by you and your allies in the state 
legislature, and your refusal to accept $55 billion in federal funds 
that would provide health services for the working poor while bringing 
down overall healthcare cost for the state.
    Sincerely,

    Hon. Corrine Brown

                                 [all]
</pre></body></html>
